<html>
<title> - [H.A.S.C. No. 111-97]PRESIDENT OBAMA'S NEW PLAN FOR MISSILE DEFENSES IN EUROPE AND THE IMPLICATIONS FOR INTERNATIONAL SECURITY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-97]
 
   PRESIDENT OBAMA'S NEW PLAN FOR MISSILE DEFENSES IN EUROPE AND THE 
                IMPLICATIONS FOR INTERNATIONAL SECURITY

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 1, 2009


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
61-736                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2641564966455355524e434a560845494b08">[email&#160;protected]</a>  
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
NEIL ABERCROMBIE, Hawaii             MAC THORNBERRY, Texas
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
VIC SNYDER, Arkansas                 W. TODD AKIN, Missouri
ADAM SMITH, Washington               J. RANDY FORBES, Virginia
LORETTA SANCHEZ, California          JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
DAN BOREN, Oklahoma

                    Erin C. Conaton, Staff Director
                Bob DeGrasse, Professional Staff Member
                 Rudy Barnes, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                      Zach Steacy, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, October 1, 2009, President Obama's New Plan for Missile 
  Defenses in Europe and the Implications for International 
  Security.......................................................     1

Appendix:

Thursday, October 1, 2009........................................    51
                              ----------                              

                       THURSDAY, OCTOBER 1, 2009
   PRESIDENT OBAMA'S NEW PLAN FOR MISSILE DEFENSES IN EUROPE AND THE 
                IMPLICATIONS FOR INTERNATIONAL SECURITY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Cartwright, Gen. James E., USMC, Vice Chairman, Joint Chiefs of 
  Staff..........................................................    11
Flournoy, Hon. Michele A., Under Secretary of Defense for Policy, 
  U.S. Department of Defense.....................................     6
O'Reilly, Lt. Gen. Patrick J., USA, Director, Missile Defense 
  Agency, U.S. Department of Defense.............................     8
Tauscher, Hon. Ellen O., Under Secretary of State for Arms 
  Control and International Security, U.S. Department of State...    16

                                APPENDIX

Prepared Statements:

    Cartwright, Gen. James E., joint with Hon. Michele A. 
      Flournoy...................................................    55
    O'Reilly, Lt. Gen. Patrick J.................................    63
    Tauscher, Hon. Ellen O.......................................    73
Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Turner...................................................    89
    Mr. Wilson...................................................    87
   PRESIDENT OBAMA'S NEW PLAN FOR MISSILE DEFENSES IN EUROPE AND THE 
                IMPLICATIONS FOR INTERNATIONAL SECURITY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Thursday, October 1, 2009.
    The committee met, pursuant to call, at 9:07 a.m., in room 
HVC-210, Capitol Visitor Center, Hon. Ike Skelton (chairman of 
the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Committee meets today to 
receive testimony on the President's new plan for missile 
defenses in Europe and the implications for international 
security.
    Joining us today is a formidable panel of witnesses, 
General James Cartwright, Vice Chairman of the Joint Chiefs of 
Staff; the Honorable Michele Flournoy, Under Secretary of 
Defense for Policy; the Honorable Ellen Tauscher, Under 
Secretary of State for Arms Control and International Security; 
and Lieutenant General Patrick O'Reilly, Director of the 
Missile Defense Agency.
    I have to give a special welcome to our friend, former 
colleague, Ellen Tauscher. It is a thrill to have you back. And 
we know that you are doing exceedingly well. We appreciate you.
    Secretary Tauscher. Thank you.
    The Chairman. We thank each of you for appearing.
    Two weeks ago, the President announced that he had accepted 
the unanimous recommendations of Defense Secretary Gates and 
the Joint Chiefs of Staff to restructure the plan for missile 
defense in Europe. He said, ``Our new missile defense 
architecture in Europe will provide stronger, smarter, and 
swifter defenses of American forces and American allies.''
    And I must say, the new plan sounds familiar. It sounds 
like very much it came from the bipartisan direction provided 
by Congress. In 2006, our bill established the policy of the 
United States to accord priority to developing, testing, 
fielding the near-term effective missile defense systems, 
including Aegis, Ballistic Missile Defense (BMD), and Standard 
Missile-3 (SM-3) interceptor Terminal High Altitude Area 
Defense (THAAD), and Patriot Advanced Capability-3 (PAC-3) 
system.
    In our bill two years ago, we made it the policy of the 
United States to develop, test, and deploy effective missile 
defenses for our forward-based forces, our allies, and our 
homeland against the threat of Iran's existing and potential 
ballistic missiles.
    Last year, we told the Department to buy more SM-3s and 
THAAD interceptors to defend against short- and medium-range 
missiles. In a nutshell, that is what the President and 
Secretary Gates announced two weeks ago.
    In my view, the new plan is comprehensive, it is flexible, 
it is designed to counter the most immediate threats posed by 
Iran first, and more quickly protect our allies and our 
forward-deployed troops in the region than previously planned.
    And, notably, it contains important hedges, so if our 
intelligence estimates are wrong, we will be in a position to 
fortify the defense of Europe as well as our homeland.
    We know that Iran is deploying significant numbers of 
short-range missiles more quickly than we had previously 
expected, and deploying some medium-range systems, such as the 
Shahab-3, that can reach Israel. Also, Iran is developing 
medium- and intermediate-range missiles that can reach Europe.
    We have a moral responsibility to do more rapidly and to 
deploy defenses that can protect our North Atlantic Treaty 
Organization (NATO) allies and our forward-deployed forces in 
places like Aviano Air Base in Italy against the growing 
threat.
    On the other hand, Iran's ability to field an ICBM--that 
is, an intercontinental ballistic missile--that can reach the 
United States is still in the future, according to our 
intelligence professionals, maybe as far away as 2020.
    That said, we know that intelligence estimates can be 
wrong. For that reason, I am pleased that the plan continues 
the testing of the two-stage Ground-based Midcourse Defense 
(GMD) interceptor that would have been deployed in Poland under 
the previous plan. And the Administration plans to continue 
negotiating with the Poles and the Czechs to reach cooperative 
agreements to base missile defense systems in those nations in 
the third or fourth stage of the plan.
    Finally, before turning to our ranking member, as well as 
our witnesses, let me just make a few comments about how this 
new plan might affect our relations with Russia. While I find 
it unlikely that calculations concerning our relations with 
Russia played no part in the decision, I am hopeful, as 
Secretary Gates wrote in the New York Times, that ``if Russia's 
leaders embrace this plan, then that will be an unexpected--and 
welcome--change of policy on their part.''
    It would be an additional benefit if the new plan opens the 
door to cooperation with Russia on missile defense. Russian 
cooperation could send a powerful signal to Iran, a point of 
great importance on the day when negotiations are to begin with 
Iran.
    So a key question for our witnesses this morning is whether 
the Russians will support this new approach and whether the 
decision will help create a united front in negotiations with 
Iran.
    Before calling on our distinguished panel, let me recognize 
my good friend, the Ranking Member, Mr. McKeon from the State 
of California.
    Mr. McKeon.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman.
    It is a privilege to welcome our distinguished witnesses 
here today: General Cartwright, Secretary Flournoy, General 
O'Reilly. In particular, I would like to extend a warm welcome 
back to the gentlelady from California, our colleague and now 
Under Secretary of State, Ellen Tauscher, and my native 
Californian friend.
    Secretary Tauscher. Thank you.
    Mr. McKeon. Our hearing today focuses on the 
Administration's decision to scrap plans for deploying a 
European missile defense capability in Poland and the Czech 
Republic to protect Europe and the United States.
    My colleague has voiced broad support for the 
Administration's new proposal. Let me say I am skeptical. I 
think it has some merit but, as I weigh all the costs and 
benefits of the decision, both quantitative and qualitative, I 
do not come to the same conclusion. I think there are 
questionable assumptions, a lot of ``ifs,'' and considerable 
geopolitical consequences.
    A key justification for the Administration's decision is a 
new threat assessment, which suggests that the threat from 
Iran's longer-range ballistic missiles has been slower to 
develop, while its short- and medium-range ballistic missiles 
(MRBMs) are growing more rapidly than previously expected. It 
is a sudden change and inconsistent with the frequent 
briefings, intelligence reports, and testimony the committee 
has received from intelligence and defense officials.
    In March of 2009, General Craddock, then-Commander of U.S. 
European Command, testified before the committee. And I quote, 
``By 2015, Iran may also deploy an intercontinental ballistic 
missile capable of reaching all of Europe and parts of the 
U.S.''
    In May 2009, an unclassified intelligence report issued by 
the National Air and Space Intelligence Center (NASIC) stated, 
``With sufficient foreign assistance, Iran could develop and 
test an ICBM capable of reaching the United States by 2015.''
    Despite this expert testimony and information, there seems 
to be this certainty within the Administration that the 
Iranians can't develop an Intermediate-Range Ballistic Missile 
(IRBM) or ICBM by 2015, and that these are not real threats to 
be worried about.
    Does this certainty consider foreign assistance? Because, 
as we all know, Iran continues to work closely with North Korea 
who, themselves, appear to be pursuing ICBMs.
    Does this certainty account for uncertainty? Intelligence 
is a fickle business, especially when a country is determined 
to mask its activities. Friday's revelation that Iran is 
building a covert uranium enrichment facility is a case in 
point. A December 2007 National Intelligence Estimate (NIE) 
judged that covert uranium enrichment efforts were ``halted.'' 
Less than two years later, they are not. The NIE also 
highlighted intelligence information gaps and shortfalls. So I 
am skeptical when I hear Administration officials talk in such 
absolute terms that the long-range missile threat isn't as 
quick to develop.
    We are all concerned by the proliferation and growth in 
short- and medium-range missiles. They are a threat to our 
allies, particularly in the Middle East and Asia, and to our 
forward-deployed troops. Thus, increasing our theater missile 
defenses is incredibly important.
    However, as I understood the previous plan, the 10 
interceptors in Poland and radar in Czech Republic would be 
complemented by expanding theater missile defense capabilities 
such as Aegis, THAAD, Patriot, and Allied systems to cover the 
shorter-range areas. All NATO heads of state and governments 
signed on to this basic approach at the April 2008 Bucharest 
summit.
    The testimony submitted by our witnesses also emphasized 
that the new Phased, Adaptive Approach is more cost-effective, 
with proven technology, and provides more comprehensive 
coverage of Europe sooner than the previous plan. I would like 
to understand these assertions because, frankly, with the 
information I have before me, I am having a hard time believing 
them.
    According to a 2008 independent report required by this 
committee, the Czech and Polish proposal was the most cost-
effective solution to protect the U.S. and Europe. Another 
study done earlier this year by the Congressional Budget Office 
examined sea- and land-based alternatives and came to the same 
conclusion.
    As I understand it, Phase One and Phase Two of the new 
approach provide only modest coverage of Europe. Of course, 
this depends on the number of ships available and locations 
where those ships would be deployed. Given the demands on the 
Navy's surface fleet and United States Central Command 
(CENTCOM), United States Pacific Command (PACOM), and United 
States African Command (AFRICOM) and others, dedicating those 
ships to the European theater will be challenging, to say the 
least.
    These phases also require the development and acquisition 
of new sensor technologies.
    Let's make one thing clear about this policy: if this new 
approach is to match its predecessor in terms of dedicated 
coverage, we will either need new ships or we will have to take 
ships away from other missions. Protections for most of Europe 
against medium- and intermediate-range ballistic missiles isn't 
provided until 2018, and protection of the U.S. against ICBMs 
until 2020.
    Protection of the U.S. requires a new interceptor, the SM-3 
Block IIB that I would characterize as a ``paper'' missile. 
Should Iran have an IRBM or ICBM capability by 2015, or even 
2018, this new approach could leave parts of Europe and the 
U.S. vulnerable for several years. Are we offering Tehran an 
open invitation to focus on longer-range missile development?
    Aside from the technical and cost concerns, I am 
particularly troubled by the geopolitical consequences of the 
Administration's decision, starting with its effect on our 
relationship with friends and allies. The Czech Republic and 
Poland, who have troops in Afghanistan fighting alongside U.S. 
forces, went out on a limb. The U.S. Government made a 
commitment, and we backed out. I can't express how strong my 
disappointment is over this.
    So how did the Administration inform Prague and Warsaw of 
its decision? Reportedly by late-night phone calls and hastily 
assembled diplomatic envoys. Apparently the Czech Prime 
Minister was woken out of bed after midnight, and the Polish 
Prime Minister refused to answer the phone, suspecting what the 
news might be.
    On top of all this, the announcement came on the 70th 
anniversary of Russia's invasion of Poland at the start of 
World War II. For a President who has repeatedly stressed the 
importance of multilateralism and diplomatic reengagement with 
the world, this unilateral action was abrupt and sloppy, 
occurring without the consultations promised to both 
governments.
    What will be the second- and third-order effects of this 
decision? There is what we believe, and then there is what 
others perceive. The headline of a daily paper in the Czech 
Republic read, ``No Radar. Russia Won.'' An editorial in a 
respected pro-business Czech newspaper said, ``An ally we rely 
on has betrayed us and exchanged us for its own, better 
relations with Russia, of which we are rightly afraid.''
    Are we signalling to allies that we are willing to 
compromise our relationships with them in order to better our 
relationship with Russia or, perhaps, Iran or North Korea? Will 
allies and friends view U.S. commitments more skeptically in 
the future? Will Russia and Iran use this decision as an 
opening to be more assertive in their foreign policy?
    The Administration's Russia ``reset'' policy now seems to 
have morphed into a Russia ``retreat'' policy that unsettles 
our allies and does nothing to discipline Russian behavior. 
Though the administration has stated this decision is not a 
concession to Russia, it sure looks like one. Whether the 
timing was intentional or not, on the eve of Strategic Arms 
Reduction Treaty (START) negotiations in Geneva, the 
Administration gave Russia the concession it wanted and got 
nothing in return.
    The President has also sought Russian assistance to stop 
Iran's nuclear programs, signalling that such assistance would 
lessen the need for the Czech and Polish sites that Moscow has 
opposed. Yet we have no indications that Russia will cooperate 
on Iran, and history should teach us to have very low 
expectations.
    In fact, Prime Minister Putin remarked the day after, ``The 
latest decision by President Obama . . . has positive 
implications, and I very much hope that this very right and 
brave decision will be followed by others.'' What is clear is 
that the Kremlin expects shifts in U.S. policy without taking 
any equivalent action. Ceding to Russia in areas that affect 
our national security interests is dangerous and unwise.
    During his April 5th speech in Prague, the President 
stated, ``As long as the threat from Iran persists, we will go 
forward with a missile defense system that is cost-effective 
and proven.'' Let's take stock of where we are at. The threat 
clearly persists, and I am as yet unconvinced that the new 
approach is lower-risk and more cost-effective at protecting 
the U.S. and Europe. Meanwhile, the geopolitical implications 
resulting from the decision are significant.
    Finally, perhaps the ultimate litmus test for the 
Administration's new approach will be whether it is funded. 
Will program investments match the Administration's new policy? 
They are not off to a good start, with a $1.2 billion reduction 
to the missile defense program in this year's budget. I wait 
with keen interest the fiscal year 2011 budget request.
    Thank you, Mr. Chairman, for holding this very important 
hearing.
    The Chairman. I thank the gentleman.
    We are in the mechanical age today. We have to punch the 
right button.
    I understand the order of witnesses today was requested by 
the witnesses, who will be out of the proper seniority manner. 
But we will follow the suggestions of the witnesses today and 
will be in this order: Secretary Flournoy, General O'Reilly, 
General Cartwright and, finally, Secretary Tauscher. Again, 
thank you for being with us.
    Secretary Flournoy.

   STATEMENT OF HON. MICHELE A. FLOURNOY, UNDER SECRETARY OF 
         DEFENSE FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Secretary Flournoy. Thank you, Chairman Skelton, 
Congressman McKeon, and other distinguished members of the 
committee. I appreciate the opportunity to discuss the 
Administration's new approach to missile defense in Europe with 
you today.
    We are confident that our new approach represents a 
dramatic improvement over the program of record. Under the old 
plan, we were not going to be able to deploy a European missile 
defense system capable of protecting against Iranian missiles 
until at least 2017. Under the new plan, we will be able to 
protect vulnerable parts of Europe, and the tens of thousands 
of U.S. troops stationed there, by the end of 2011. And we will 
also be creating a far more flexible missile defense system, 
one that can be adapted to provide better protection against 
emerging threats.
    As you know, the previous administration had planned to 
deploy 10 ground-based interceptors (GBIs) in Poland, a 
European mid-course radar in the Czech Republic, and a Army 
Navy/Transportable Radar Surveillance-Model 2 (AN/TPY-2) radar 
elsewhere in the region. The decision to move forward with that 
particular configuration was made nearly three years ago, based 
on threat information and the technologies available at the 
time.
    But circumstances have changed since then. First, the 
intelligence picture has evolved. And second, we have made 
major strides in missile defense technologies and capabilities 
in the last few years. We are now in a position to put in place 
a far more effective missile defense system more rapidly than 
just a few years ago.
    Let me just start by discussing our current threat 
assessment. The intelligence community now assesses that the 
threat from Iran's short- and medium-range ballistic missiles 
is developing far more rapidly than previously projected, while 
the threat of potential Iranian intercontinental ballistic 
missiles has been somewhat slower to develop than previously 
estimated.
    In the near term, what this means is that the greatest 
missile threats from Iran will be to U.S. allies and partners, 
as well as to our deployed personnel, military and civilian, 
and their families in the Middle East and in Europe. And, 
needless to say, this concern is all the more urgent in light 
of Iran's continued uranium enrichment program.
    I just want to underscore, this is the key change in the 
intel assessment that drove our action: the very real threat of 
short-range and medium-range ballistic missiles that is 
developing faster and must be dealt with sooner.
    However, as Secretary Gates has noted, we understand--
particularly, he understands, given his background--that 
intelligence projections can be wrong. Iran's priorities and 
capabilities may change in ways that we can't predict. So our 
new approach does not discount the potential future threat of 
an Iranian ICBM. In fact, it accounts for that possibility, the 
possibility that threats from Iranian long-range missiles will 
evolve more rapidly than we currently predict.
    We will have 30 GBIs deployed in the United States by the 
end of 2010, which will provide the United States with full 
protection of the homeland against an Iranian ICBM threat for 
many years to come.
    What is more, the information for the European forward-
based TPY-2 radar that remains part of our Phase One plan will 
significantly enhance the performance of our existing U.S.-
based GBIs. And we will also continue to upgrade the GBI over 
time.
    Let me turn to highlight some of the technological changes 
that have allowed us to develop an improved approach to missile 
defense. As General O'Reilly and General Cartwright will 
describe in more detail, improved interceptor capabilities 
developed in the last few years now offer more flexible and 
capable missile defense architectures. And we have also 
significantly improved our sensor technology. This means we 
have a better variety of options to detect, track, and engage 
enemy missiles. And, as a result, we have new missile defense 
options that were simply not previously available.
    Our new approach, which the President adopted on the 
unanimous recommendation of the Secretary of Defense and the 
Joint Chiefs of Staff, will rely on a distributed network of 
sensors and SM-3 interceptors which can be fired from both 
Aegis-capable ships and from land. This means greater 
geographic flexibility, greater survivability, and greater 
scaleability in response to an evolving threat. That is exactly 
what we mean by a Phased, Adaptive Approach.
    Before I close, let me just say a few words about how our 
new approach has been received by our allies. For us, one of 
the many advantages of the new architecture we are building is 
that it greatly increases our ability to work with our European 
allies and partners, and to strengthen extended deterrence and 
mutual defense. The new architecture provides many more 
opportunities for alliance-building and burden-sharing between 
the United States and our NATO partners.
    Indeed, the reactions we have gotten from our allies have 
been quite supportive. NATO Secretary-General Rasmussen has 
hailed the decision as a positive step, while Polish Prime 
Minister Tusk described the offering as ``a real chance to 
strengthen Europe's security.''
    We have already begun our discussions with both Poland and 
the Czech Republic about their potential new roles in the new 
architecture. And our Polish allies know, they understand that 
they have the option of replacing the GBIs from the previous 
plan with land-based SM-3 interceptors in the new plan. We 
will, thus, continue to work with our Polish friends to seek 
ratification of the Missile Defense Basing Agreement and the 
Supplemental Status of Forces Agreement.
    We are also in discussions with the Czech Republic to 
ensure that they continue to play a leadership role in missile 
defense within the alliance. We have several joint projects 
that are already under way, and those will continue, with our 
Czech partners. And we are discussing several more, including 
the possibility of having the Czech Republic host some of the 
new system's command and control elements.
    We certainly welcome Russian interest in the new approach, 
as well as potential Russian cooperation in sharing data from 
their radars. But this is not about Russia; it never has been 
about Russia. Regardless of the Russian reaction, we will 
continue to do whatever it takes to ensure our security and 
those of our partners and allies.
    Let me end here by underscoring this point. And this is a 
point that was absolutely critical to Secretary Gates, who had 
previously, as you recall, championed the program of record. 
And this point was critical to his deciding to support what he 
believes is a better new way forward. And that is this: our new 
approach to missile defense in Europe allows us to provide 
coverage to vulnerable parts of Europe much faster than the old 
approach. And when fully deployed in Phase Four, it will be 
even more capable than the program of record, both for European 
missile defense and for U.S. homeland defense.
    And let me be clear: our new approach allows us to augment 
our current protection of the U.S. homeland against the long-
range ballistic missile threats that may evolve in the future, 
starting in Phase One with the addition of the forward-based 
radar.
    So, in sum, we are not scrapping missile defense in Europe; 
we are strengthening it. And we look forward to working with 
this committee to make this ballistic missile architecture a 
reality.
    Thank you once more for this opportunity to testify, and we 
look forward to your questions. I am going to hand it over to 
General O'Reilly. Thank you.
    [The joint prepared statement of Secretary Flournoy and 
General Cartwright can be found in the Appendix on page 55.]
    The Chairman. General O'Reilly, please.

   STATEMENT OF LT. GEN. PATRICK J. O'REILLY, USA, DIRECTOR, 
       MISSILE DEFENSE AGENCY, U.S. DEPARTMENT OF DEFENSE

    General O'Reilly. Good morning, Mr. Chairman, Congressman 
McKeon, distinguished members of the committee. I appreciate 
the opportunity to testify before you today on the technical 
aspects of the President's decision to use the Phased, Adaptive 
Approach for missile defense in Europe.
    This new proposal is a more powerful missile defense of 
NATO. It enhances U.S. homeland defense and is deployable to 
theaters around the world and is more adaptable to respond to 
threat uncertainties.
    The previous proposed missile defense of Europe consisted 
of four components: a command and control system; 10 ground-
based interceptors, or GBIs, in Poland; an X-band 
discrimination radar in the Czech Republic; and an X-band 
precision tracking radar forward-based in southeastern Europe.
    Assuming a shot doctrine of two interceptors against each 
threat missile, this previous missile defense architecture had 
a maximum capability to engage five intermediate-range 
ballistic missiles or medium-range ballistic missiles aimed at 
Europe, or five intercontinental ballistic missiles aimed at 
the United States from the Middle East.
    The most valuable component of the previous architecture to 
the defense of the U.S. homeland was a forward-based sensor in 
southeastern Europe, which would provide early and precise 
tracks of threat missiles from the Middle East heading towards 
the United States, thus increasing the accuracy of the fire 
control instructions at our GBIs based at Fort Greely, Alaska, 
and Vandenberg Air Force Base, California.
    We remain concerned about the future Iranian ICBM threat. 
Therefore, we are retaining the forward-based sensor component 
in our new Phased, Adaptive Approach proposal to enhance the 
defense of the U.S. homeland. Moreover, we also continue to 
develop the GMD system, Ground-based Midcourse Defense, and 
begin testing against ICBM targets using representative Iranian 
trajectories.
    A significant limitation of the previous European 
architecture was that the GBIs were used in intercontinental 
ballistic missile, intermediate-range ballistic missile, and 
medium-range ballistic missile defense roles. Given the current 
threat estimate, by 2017 the European-based GBIs could rapidly 
be consumed by an attack of five Iranian medium-range ballistic 
missile or intermediate-range ballistic missiles aimed at NATO 
countries, leaving no GBIs to contribute to U.S. ICBM defense.
    Therefore, the previously proposed European defense 
architecture was insufficient to protect NATO and our forward-
based forces and provide redundant coverage of the United 
States homeland.
    Fortunately, we have made significant advances over the 
last several years in missile defense technologies that enable 
a Phased, Adaptive Approach to defending Europe. The area of 
greatest potential is developing faster and more accurate 
command and control, battle management, and communications 
systems using a network of many different sensors, especially 
sensors that can track missiles in the early phases of their 
flight.
    For example, our intercept of the ailing satellite in 
February 2008 was made possible by combining data from sensors 
around the world to provide a highly accurate track of the 
satellite to a modified Aegis weapons system and its SM-3 Block 
IA missile prior to the ship's radar even seeing the satellite. 
Although this was only a very limited capability against an 
inoperable satellite, it demonstrated the significant benefit 
of networking sensors in a missile defense architecture.
    Another example is the most recent intercept test of the 
Ground-based Midcourse Defense System last December, when we 
combined the tracks of satellites, early warning radars, Sea-
Based X-Band radars, and forward-based radars on land and sea 
to provide the GMD System with a very accurate track.
    Additionally, earlier this year, we demonstrated unmanned 
aerial vehicles (UAVs) as highly accurate forward-based missile 
defense sensors and intercept tests.
    Furthermore, last Friday, we successfully launched a pair 
of demonstration Space Tracking and Surveillance System (STSS) 
satellites that will detect and track ballistic missiles over 
their entire flight for the first time.
    Finally, at our External Sensors Laboratory at Schriever 
Air Force Base, Colorado, we continue to develop new algorithms 
and demonstrate combining new sensor data to achieve even more 
accurate tracks than any individual sensor could produce.
    We propose the Aegis Standard Missile-3 Block IA as our 
primary interceptor in this architecture. It is a very capable 
interceptor due to its high acceleration, velocity, its proven 
track record, and our ability to rapidly increase to over 80 
interceptors at any one site.
    Since we began testing the operationally configured SM-3 
Block IA missile in June 2006, we have successfully intercepted 
a target in eight out of nine times that we have launched the 
interceptor. Of note, the SM-3s are also more affordable than 
Ground-based Midcourse Defense interceptors since you can buy 
four to seven production variants of the SM-3 for the cost of 
one GBI.
    Finally, a key attribute is that we can launch SM-3s from 
sea or sites on land, which gives us great flexibility in 
placing the interceptor launcher between the threat and the 
area you are trying to protect, a key enabler in intercepting 
threat missiles early in flight.
    We are developing a new kill vehicle for the SM-3 
interceptor, the SM-3 IB, which uses the same rocket motor as 
the SM-3 but has a more advanced seeker and fire control system 
that uses external sensors as well as the Aegis radar. We have 
already demonstrated the higher-risk components of the new kill 
vehicle and are planning the first intercept test in the winter 
of 2011. A more advanced variant of the SM-3, the SM-3 IIA, has 
been under develop since 2005. This interceptor will have more 
than twice the range of an SM-3 Block IB.
    We propose defending NATO in phases. Phase One would 
consist of Aegis ships with SM-3 Block IA missiles deployed in 
the eastern Mediterranean Sea and a forward-based sensor in 
southeastern Europe. We propose, by 2015, the development and 
deployment of the SM-3 Block IB missile, which will have 
greater capacity to use a network of sensors and greater 
ability to discriminate threat objects. Scores of SM-3 IBs 
could be deployed at land- and sea-based locations.
    By 2018, the deployment of the SM-3 IIA missile, which 
could defend all of NATO from two land-based site locations and 
one sea-based location. By 2020, our goal is to develop a 
higher velocity SM-3 IIB missile to destroy MRBMs, IRBMs, and 
ICBMs early in their flight from interceptor launch locations 
within the theater of the threat launch location.
    Two land-based SM-3 Block IIB sites would protect all of 
NATO. The timeline I have presented allows for these missile 
defense technologies to be tested and proven prior to 
deployment decisions. An additional advantage of the Phased, 
Adaptive Approach is its applicability to missile defenses 
outside of Europe.
    Finally, the addition of radars at Armavir, Russia, and 
Gabala, Azerbaijan, and cooperative development of missile 
defense technologies by Russia and other countries are not 
necessary, but would be welcome.
    We are committed to fully funding this program as we 
prepare for the next budget submission to Congress. However, it 
is important that we have relief from rescissions and the 
flexibility to spend unused fiscal year 2009 Research, 
Development, Test, and Evaluation (RDT&E) and some MILCON--
military construction--dollars associated with the previous 
European site proposal.
    I note that both the House and Senate authorizing 
committees have very presciently included provisions in this 
year's national defense authorization bill that permit the 
Department to use fiscal year 2009 and fiscal year 2010 funding 
for an alternative architecture once the Secretary of Defense 
certifies that this architecture is as cost-effective, 
technically reliable, and operationally available as the 
previous program.
    With this relief and some redirections in the fiscal year 
2010 funds, we can pursue this new architecture with our fiscal 
year 2010 budget request.
    Executing this approach will be challenging. There will 
likely be setbacks. But this architecture is no more 
challenging than the development of other missile defense 
technologies in which we have been successful. The engineering 
is executable, and the development risks are manageable.
    I thank you and look forward to your questions.
    [The prepared statement of General O'Reilly can be found in 
the Appendix on page 63.]
    The Chairman. I thank the gentleman.
    General Cartwright.

  STATEMENT OF GEN. JAMES E. CARTWRIGHT, USMC, VICE CHAIRMAN, 
                     JOINT CHIEFS OF STAFF

    General Cartwright. Thank you, Chairman Skelton and 
Congressman McKeon. And thank you for this opportunity.
    I have had the privilege of working on the missile defense 
architecture and the war fighting requirements for over 10 
years now, on the Joint Staff as a combatant commander and, 
now, as the Vice Chairman of the Joint Chiefs.
    The congressionally directed Ballistic Missile Defense 
Review has provided the opportunity to review our objectives, 
the threat, the combatant commanders' needs, and the 
technologies available. Our recommendations are not a departure 
from the objectives. The needs of the combatant commanders, 
however, reflect an adjustment to the balance of our 
capabilities in response to the threats that they actually face 
today and the threats that are clearly visible on the horizon.
    My colleagues have laid that case before you. Allow me to 
address the architecture and the broader implications of our 
recommendations across all of the combatant commanders.
    The objectives have not changed, as I said. They remain: 
defense of the homeland, defense of our deployed forces, 
friends, and allies. We still have a three-tier approach here. 
We defend the homeland, and the principal weapons systems that 
we use to defend the homeland are the ground-based interceptors 
currently based in Alaska and California. We defend the 
theaters. And this is probably the newest capability that we 
are starting to field, with the Standard Missile-3 and with the 
Theater High Altitude Air Defense missile, called THAAD. And we 
defend point defenses, which are our critical bases, 
infrastructure where our forces are, population centers, things 
like that, with the Patriot system. So we have a three-layered 
approach: the homeland, the theater, and the point defense for 
critical assets. That is still in place.
    What we have now, with the emergence of SM-3 and the THAAD 
system, is a robust capability at the theater level, which we 
did not have before. Each of these systems tend to bleed over 
into each other, so the GBI can, in fact, work at the theater 
level, which is what would have happened with the system that 
we would have put in Europe. It would have had the capabilities 
to work against medium-range ballistic missiles and defend that 
theater. But it is principally designed in a very sophisticated 
capability to defend the homeland. THAAD and SM-3 can, in fact, 
defend the homeland if we put them there; can, in fact, defend 
at the theater level; and can, in fact, defend at the point 
level at bases and stations.
    So each has a bleed-across. And that is some of the 
redundancy that is absolutely essential and is critical in the 
capability that the combatant commanders are asking for. In 
other words, they don't want to be required to rely on one 
system for each approach.
    The emergence of the PAC-3 and these theater capabilities 
really started about three years ago. And we started to shift, 
with the help of this committee, our investment structure 
across into SM-3 and THAAD, most recently as it has started to 
emerge. And so the buying out of the PAC-3, so our forces had 
sufficient of those. Now the investment heavily in SM-3 
quantities and in THAAD is critical to our ability to field 
these Phased, Adaptive Approaches.
    We look at the threat from the basis of three points, also. 
It is a military thing; we have to do everything in threes. 
But, primarily, we start with the terminal defense, the ability 
to defend something at the end game. So, as the missile 
reenters the atmosphere and goes toward the target, that is the 
terminal phase, principally handled by Patriot, by THAAD, and 
by SM-3.
    The midcourse is the most challenging, generally done 
outside of the atmosphere for long-range ballistic missiles. 
That is the terrain of the ground-based interceptor. That is 
where it works. That is a very difficult place to work because 
you have to navigate and be able to operate in the atmosphere, 
leave the atmosphere, deploy the weapon, and then close on the 
target at very, very high speeds, without the advantage of the 
air.
    And then the terminal is the reentry, a very difficult 
phase. And we use the Patriot in principle to work that end, 
along with the SM-3 and the THAAD.
    The boost is where we have the most opportunity to be 
effective. And it is the most difficult to field as a 
capability. The boost is considered that phase from launch 
until we generally leave the atmosphere. If you can catch a 
missile in the boost phase, from an operational standpoint, it 
is before it can do much of anything. Any threat missile is 
most vulnerable in the boost phase. There are many studies out 
there talking about the boost phase. But it is very short. It 
is a very kinetically active point; in other words, the missile 
motors are running at that time. They are staging through. It 
is a very difficult phase to be in, and you have to close very, 
very quickly.
    What is standing before us out in the 2020 time frame is an 
operationally relevant capability to start to close the boost 
phase. That, as the congressman said, is to some extent paper 
today. But we are on the breadboard. We are testing the 
sensors, and we are testing the missiles that we believe will 
give us the capability as a Nation to get at these missiles in 
the boost phase.
    In the boost phase, the missile doesn't care whether it is 
a short-range, medium-range, intermediate-range, or 
intercontinental range. It doesn't matter. If you can catch it 
in the boost phase, you can do something about it there very 
early in the game. And that, for us, holds the greatest 
possibility. We are focusing our Research and Development (R&D) 
to try to come up with a relevant way--an operationally 
relevant way--to get at the boost phase. That is the thrust of 
a lot of our work as we move to the future.
    We still remain and seek the capability, though, to go 
after missiles that are either on a pad, which is probably the 
easiest target and for which most ICBMs--all ICBMs right now 
associated with Iran and North Korea are pad-launched. In other 
words, they are very visible, they are up above the ground, and 
you can go after them before launch if you so desire. We are 
not advocating preemptive, but it is a physical capability that 
we possess.
    There is also the silo-based. That is a very difficult way 
and generally reserved for ICBMs of sophisticated countries. 
But you put them in the ground, and you launch them from silos, 
and they come out of the ground. It is very difficult to go 
after that. They can be hardened, and that is a difficult 
target.
    And the more prevalent, now, direction that we see 
countries going is the mobile capability. In other words, we 
put these missiles on a tail, drive them around to a point of 
advantage, and then launch them from someplace remote.
    So we still retain, and want to retain, the capability to 
go after pad-based, mobile-based, and silo-based missiles. We 
believe that is essential, from the combatant commander's 
perspective, to be able to get at all three types of missiles. 
This architecture allows us to do that.
    And probably, for the combatant commander, the most 
significant change in the intelligence that is relevant to them 
and important to them is this idea of raid, the number of 
missiles. The systems that we have today, such as Patriot, were 
designed to engage three, maybe five missiles coming in. Same 
for our ground-based interceptor. And yet what we are facing 
today in the short-range fight is hundreds. And what we think 
we are going to face in the medium-range fight in the very near 
future is hundreds.
    None of the systems that we have today were really built 
for hundreds. And that includes the SM-3 system, which is the 
Aegis radar; that includes the Patriot radar and the THAAD 
radars. What is fundamentally different here is that we have 
added radar sensors in to take the existing weapons systems and 
make them effective against raids, to be able to sort out and 
make sure that you are not wasting rounds, multiple rounds 
against the same target because you are in different locations, 
et cetera, but to actually distinguish against raids.
    This is what the combatant commanders most seek. And this 
is what this radar in the southeastern part of Europe, the same 
radar that we deployed two years ago into Japan and the radar 
we deployed this year into Israel, that is the capability of 
this X-band radar, is to sort through large raid numbers, 
provide then to either the Patriot or the SM-3 or the THAAD or 
the GBI exactly which target is assigned to which missile. That 
is absolutely critical and something we have never had before. 
That is fundamentally different. And that is why it is so 
essential to the combatant commanders.
    Let me talk a little bit about adaptive and responsive. The 
command and control system that we have put together is not a 
command and control system for Europe only. It is a command and 
control system that is global.
    One of the biggest challenges we have today in the physical 
infrastructure and the physical industrial ability to field 
these systems is that the missiles have far greater range than 
the sensors that are organic to them. So an Aegis system and 
the SM-3, the SM-3 can fly much further than that system can 
see and guide it. The same is true for Patriot, the same is 
true for THAAD; obviously, for the GBI because it goes around 
the Earth.
    What we are able to do today in this command and control 
system is use a sensor that is dislocated from the weapon to 
actually guide it to the interceptor. That is the capability 
that will be fundamentally put together as we field this system 
in 2011, mature as we get to 2015. So, a sensor completely 
dislocated from the system. That is what we demonstrated when 
we shot down the errant satellite. The sensor on the ship never 
saw that satellite until the last second or two. Okay?
    And being able to do that means that we do not now have to 
try to build on every ship or airplane or land base a huge, as 
we call it, ``aperture'' in order to see targets that are very, 
very far away. We can use netting of these sensors in a way 
that we could never do, because we are in this digital age, and 
move that data to the missile in an operationally relevant way. 
That is absolutely critical.
    We want to be able to continue to hold that risk, all of 
those targets that are fixed or relocatable or mobile, but we 
also want to bring those attributes to our own capability. Once 
you fix a site, it can only address a certain range of threats, 
whether it is the missile or the sensor. And so, the system 
that we are looking at today in differentiation from the 
ground-based interceptor is called ``relocatable.'' In other 
words, these SM-3s that would be land-based, can be moved over, 
probably, think in terms of a couple of months and relocated if 
the threat has been relocated. So we can move them around.
    By putting the system on the mobile platform, which is the 
Aegis system and the ship, we can move to that threat if it 
emerges someplace that the intelligence didn't predict it would 
emerge. And I love my intelligence counterparts, but the one 
thing I have to live by as a rule is I can't rely on it. I have 
a thinking enemy out there. They have a vote. They may emerge 
in someplace that we don't predict. By having the system on 
Aegis, on the ship, we can close with the threat wherever it 
emerges, no matter what the intelligence may have thought two 
or three years prior. And that is just a fact of life. We have 
to be able to do that. You will hold me accountable for doing 
that if we have to defend this Nation.
    And so we have to have a mixture between mobile, 
relocatable, and fixed sites. The fixed sites, actually, are 
the cheapest. Once you build them, it is much easier to, in 
fact, sustain them. And I think the congressman's point about 
ships and the cost of ships and their multiple missions is a 
fair point. But understand that most of the Aegis systems--
depends on which one you look at--have about 140 tubes. And in 
those tubes can be this kind of missile, can be cruise 
missiles, can be all sorts of different armaments. It is a very 
versatile and capable ship. It depends on what mission you 
assign it to, as to what it goes and does, but it is almost 
always ready to go do two or three other types of missions at 
any point in time.
    We do not like to anchor a mobile ship to a fixed location 
for any extended period of time because it does, in fact, 
diminish its capability broader on a global scale. But if that 
is what we need, if that is what we need to get redundancy, if 
that is what we need to move to a threat we didn't predict, it 
is the most capability that we have.
    Let me talk just a little bit more about weapons and 
sensors. There is another thing here that is very fundamentally 
different for the combatant commander about this approach to 
weapons and sensors. It is the ability to pair the right weapon 
with the right sensor and not have them owned by any one 
service, not have them owned by any one country, not have them 
owned by any one who may have been an ally yesterday, may not 
be an ally today. We can mix and match in ways that, 
historically, we have never been able to do.
    We are trying to move to a system that we call ``any 
weapon, any sensor.'' We are not there yet. But that is where 
we want to be for the vagaries of the intelligence that we have 
to deal with, the real-life fact that the enemy gets a vote in 
this, and the reality that we are never sure who we are going 
to have to defend against tomorrow. I mean, I would not have 
predicted that we were going to be in Afghanistan 5, 10 years 
ago. It is a fact that we have to deal with on the combatant 
commander side.
    The other part of this that is very powerful, from our 
perspective, is today many countries own the Patriot system. 
Those Patriots can be integrated into these sensors and this 
command and control very easily. Many countries own the Aegis 
system. We can integrate these missiles and their fire controls 
into this system very easily.
    And the reality is many countries have sensors, radars, et 
cetera, and have weapons that we can bring in. For instance, in 
Israel we are integrating their Arrow weapon into this system. 
We are integrating other countries' radars into this system. We 
talked briefly about the potential to get the two Russian 
radars.
    This system is agnostic to the source. It basically 
converts the data into something that can be used, no matter 
how it was developed and off of what system. The bulk of our 
radars that we are using for this system were fielded in the 
1970s. And we are using them today for modern weapons and 
modern threats because we can do that in the digital age.
    And this starts to realize for us the ability to bring 
allies together in fundamentally different ways. Think about a 
system that you could not afford as a single nation but, 
because you can band together with your neighbors, you can 
build a defense. That is a different way of thinking about 
deterrence. That is what this system starts to offer us.
    It takes all three parts: it takes the command and control, 
it takes the weapons, it takes the sensors. But as we now start 
to talk to our partners in the Pacific, and you watch the 
Japanese field their Aegis systems, which are basically joining 
into this, as you watch the South Koreans do the same, it sends 
a very powerful message to the North Koreans. As you watch the 
same thing in the Gulf states, as we now deploy the Patriot 
systems and as we deploy the SM-3, it is fundamentally changing 
how they think about their neighbor and how they think about 
collective defense vis-a-vis Iran.
    That is a very powerful approach. NATO has embraced this 
for that very reason. It is not a U.S.-only approach. It allows 
them to build their indigenous systems, it allows them to 
decide who they want to partner with, but it builds a 
collective defense that no one nation is going to be able to 
afford.
    I appreciate this opportunity. We stand ready for your 
questions. I really do believe, as do the chiefs, that this is 
the way to the future. It is also the way to the present and 
the threats that the combatant commanders are facing today. 
Thank you.
    [The joint prepared statement of General Cartwright and 
Secretary Flournoy can be found in the Appendix on page 55.]
    The Chairman. General, thank you so much.
    The gentlelady from California, who made a multiyear study 
of this subject and did so well while she was a Member here, we 
would love to hear from you, Secretary Tauscher.

 STATEMENT OF HON. ELLEN O. TAUSCHER, UNDER SECRETARY OF STATE 
FOR ARMS CONTROL AND INTERNATIONAL SECURITY, U.S. DEPARTMENT OF 
                             STATE

    Secretary Tauscher. Thank you, Chairman Skelton and Ranking 
Member McKeon. Thank you very much for the warm welcome.
    To my distinguished members of the House Armed Services 
Committee, it is an honor to testify before you today. Let me 
say before the questions start that I miss you professionally 
and personally very much, and I thank you very, very much for 
your service. And I thank you for the opportunity to testify 
before you today on the President's approach to missile defense 
in Europe.
    I know that the President's decision has prompted much 
discussion, especially on the cable talk shows and on some 
editorial pages. Besides restating what my very distinguished 
colleagues from the Department of Defense have already said, I 
want to bring a sense of balance to this discussion and focus 
my remarks on the foreign policy implications of this 
initiative.
    Let me begin by stating very strongly that the Obama 
Administration is fully committed to deploying operationally 
effective and cost-effective missile defenses to protect the 
United States, our deployed forces overseas, and our allies. 
After months of review and with the full support of his 
national security team, President Obama decided to bolster our 
national security and renew our approach to missile defense in 
Europe today based on the latest intelligence and what we 
understand the threat to be today.
    The Intelligence Community found that the threat of a 
potential Iranian ICBM had been slower to develop than 
previously estimated, while the threat from Iran's short- and 
medium-range ballistic missiles is developing more quickly than 
previously projected. The Iranian missile launches earlier this 
week visibly demonstrate the nature of this threat. Our 
approach provides more effective defenses today against the 
threat.
    The allegations that we decided to cancel or shelve plans 
for U.S. European based missile defense deployments are simply 
not true. From a foreign policy perspective, our new approach 
has a number of advantages over the previous plan.
    First, as the threat evolves, the system will evolve to 
protect all of our European NATO allies. We can't protect some 
and leave others vulnerable.
    Second, our plan will put more interceptors in Europe. 
Instead of 10 interceptors in 2018, this new plan will deploy 
scores more. Under the previous plan, if two interceptors were 
fired at each Iranian ICBM, Iran would need only six missiles 
to overwhelm the system. The greater number of interceptors 
under our new plan will complicate Iran's plans to use or 
threaten to use their balance missiles as coercive weapons.
    Third, this system is more mobile and can be deployed more 
quickly than the previous system, plus we can tailor the number 
of deployed interceptors to the threat.
    Fourth, placing an emphasis on proven capabilities, such as 
the SM-3 interceptor, will increase the credibility of the 
United States' commitment in the eyes of our allies and, I 
might say, our adversaries. Deploying missile defenses with a 
demonstrated track record of success means that our allies will 
not have to wonder whether a system can be reliable in 
defending against a threat.
    Again, this new architecture provides an improved 
opportunity for other allies to participate in the defense of 
Europe, so it is not a surprise that foreign leaders like 
Chancellor Merkel, President Sarkozy and Prime Minister Brown 
have praised our new approach.
    We believe the response from the Polish and Czech 
governments has been positive since our trip to Europe. We will 
continue our efforts to strengthen our strategic relationship 
with them. Our bilateral relationships have expanded in both 
depth and breadth, and we consider both countries, both of whom 
have participated in operations in Iraq and Afghanistan, to be 
among our closest and staunchest allies. We remain committed to 
implementing a range of security and defense dialogues and we 
have offered both countries the opportunity to participate in 
elements of our new missile defense architecture.
    When we visited Warsaw last month, we offered Poland the 
opportunity to host a land based SM-3 interceptor site. We will 
further demonstrate our commitment to Poland by ensuring in the 
near future that we have boots on the ground, which is what the 
Polish government really wants. This could include plans to 
rotate a U.S. Army Patriot unit to Poland.
    With respect to the Czech Republic, the United States will 
continue to identify areas where our military cooperation could 
be strengthened and broadened. We hope to conclude soon an 
agreement that will provide a means for defense cooperation in 
many areas, and we will continue to work on ballistic missile 
defense research with the Czech industry.
    I want to make a final point regarding Russia. Nothing that 
we did had anything to do with Russian saber-rattling or their 
consternation about the ground-based interceptors or the Czech 
radar. The decision was not part of any trade-off or quid pro 
quo. As someone who participated in the senior level 
interagency meetings as part of the decision-making process, I 
can tell you that President Obama based his decision on the 
latest intelligence, which calls for a stronger missile defense 
program that can be deployed sooner. If, as a consequence of 
President Obama's decision, relations with Russia improve, then 
we should embrace that benefit.
    Mr. Chairman, Ranking Member McKeon, the Obama 
Administration has made the right choice for the right reasons. 
As we implement this new program, including the fiscal 2011 
budget, I hope you will support our efforts.
    I thank you much for your time and I would be happy to take 
any questions you have.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Tauscher can be found 
in the Appendix on page 73.]
    Chairman Skelton. I certainly thank you.
    I will limit my questions because there are so many here 
who wish to ask of you today.
    As I understand it, three of you, excluding General 
Cartwright, were part of a delegation to Europe two weeks ago 
to discuss the President's decision with Polish and Czech and 
NATO officials. Can you give us a summary of that discussion 
and the issues raised, particularly by the Poles and the 
Czechs?
    Secretary Flournoy, we will ask you to lead off on that. If 
the others have comments, we would appreciate it.
    Secretary Flournoy. Yes, we did go over to Europe and went 
first to Prague--I am sorry, went first to Warsaw and then to 
Prague and then to brief the North Atlantic Council.
    I think one of the things we had to deal with when we 
arrived is that there had been a number of leaks in the press, 
or erroneous and speculative stories in the press, so that we 
found--despite previous consultations--we found our allies 
expecting something different than what we were actually going 
to suggest to them.
    So I think part of our meetings was really focused on 
explaining the new approach to them and correcting 
misimpressions of what exactly the proposal was.
    I think once they understood that, particularly in Poland, 
we very quickly got into discussions about how they could 
participate in the new architecture and reaffirmed to them that 
other elements of previous agreements related to, say, the 
Patriot rotation and other aspects of our security cooperation 
remained fully valid and we, in fact, planned to pursue even 
broader and deeper cooperation with them.
    I think in the Czech Republic, I think that we certainly 
delivered the news to them that the radar would not be part of 
the new architecture, but we also hastened to reaffirm the fact 
that the agreement for cooperation on missile defense would 
continue, we have a number of ongoing projects with them, and 
that we would welcome finding new ways for them to participate 
in the new architecture, and we are already having follow-on 
discussions with them to identify specific ways that they could 
play a leadership role in the new system.
    Lastly, when we went to the NAC, the North Atlantic 
Council, I would say that the response was uniformly positive. 
I think people understood the benefits of the system, they saw 
greater opportunities for countries to participate, and they 
saw a real potential for linking and integrating what we are 
proposing with the work that NATO has already begun on their 
own missile defense command and control architecture.
    I would defer to General O'Reilly and Secretary Tauscher to 
see if they have anything to add.
    General O'Reilly. Sir, I was part of the negotiating teams 
for the last couple of years and the personnel that we met with 
in both countries--Poland and the Czech Republic--were the same 
that I have been sitting across the table from for years. I 
believe they were greatly comforted from the fact that what we 
are proposing is very minor changes to the ballistic missile 
defense agreements that we have already agreed to that we are 
waiting ratification for.
    In the case of Poland, it is changing literally the 
reference to a ground-based interceptor, capital letters, to a 
ground-based interceptor, lower case, and other than the 
annexes, that is the gist of the changes in order for us to 
continue on with Poland participating in the architecture.
    In the Czech Republic, again, we no longer see a 
requirement for the radar, but there are many opportunities, 
including facilities which they could host as we have a more 
distributed system across Europe, especially in our area of 
command and control, and we have been following up with 
discussions with the Czech government as they ask more 
questions about that and seem very interested.
    Secretary Tauscher. I think that my colleagues won't be 
surprised to find out that the press got it wrong and that the 
press speculation, which was generated beginning in the United 
States and then into Europe, was completely wrong about what 
the Obama Administration was going to do. So when we arrived 
very early in the morning in Poland, we found ourselves having 
to reorient everyone to the fact that we were not killing 
missile defense in Europe but, in fact, enhancing it and 
improving it. So that took a couple of minutes.
    But I think what you can see, I met with my Polish 
counterparts just earlier this week. They are in town to finish 
the negotiations on both the agreement on the basing and on the 
supplemental Status of Forces Agreement (SOFA), which are 
important for not only PAC-3 installations, but for this future 
SM-3 installation that we hope they are going to agree to, and 
they are increasingly enthusiastic about this. Our friends in 
the Czech Republic are very interested in the number of 
different things that we are talking to them about.
    But I think the most important thing was very late in the 
day, after now going to two cities, we arrived in Brussels to 
meet with the NAC, and I think what you see is that our North 
Atlantic Council members, our NATO allies, are very happy to 
see we are NATO-izing this system. They are seeing that this is 
a system that is now not going to protect some in NATO but all 
of NATO, and it is going to do it sooner against the current 
threat with proven technologies. And I think it is very clear 
that they are enthusiastic about this, that they are happy to 
see that the command and control system that they are 
developing dovetails very nicely with what we are proposing.
    So I think there is a net benefit to everyone. It is being 
recognized. I think the statements out of Prime Minister Tusk 
in Poland and Foreign Minister Sikorsky really state that this 
is something that they are very, very happy to see and that we 
are working closely with them to go forward and provide more 
information.
    The Chairman. Thank you. I will limit my questions on that 
until later.
    Mr. McKeon.
    Mr. McKeon. Mr. Chairman, I will hold my questions until 
later to give our colleagues an opportunity to ask theirs now.
    The Chairman. John Spratt.
    Mr. Spratt. Mr. Chairman, I have been following ballistic 
missile defense since the days of the Strategic Defense 
Initiative (SDI). I will tell you how long that has been. 
General O'Reilly was a Captain at West Point teaching physics 
in the photon lab when I first started taking an interest in 
it. You have come a lot farther than I have, sir, with three 
stars on your shoulder.
    This is one of the finest presentations I have heard from 
both the policy making, foreign policy making realm and from 
the military realm as well. It is an excellent presentation. 
Let me just hit the highlights with you as to the cost-
effectiveness of the decision you are making.
    It is my understanding that the GMD has a cost of around 
$70 million a copy, is that correct?
    General Cartwright. Yes, sir.
    Mr. Spratt. And the SM-3 IA, Block IA, you ought to come up 
with a different designation for that so it is easier is easier 
to get out. In any event, the cost per copy is $10 to $15 
million apiece?
    General O'Reilly. Yes, sir. The IA versions are $10 
million, they are slightly less than that, actually, and then 
the projected cost of the II series, the IIA and IIB would be 
$15 million.
    Mr. Spratt. The IIB would be $15 million? It is still about 
three or four times less expensive than the GMD.
    General O'Reilly. Yes, sir.
    Mr. Spratt. So the cost of the chosen system is 
substantially less. Are you confident in that cost?
    General O'Reilly. Yes, sir, we are, because we have 
produced the SM-3 IA, we are in production now, and a lot of 
that missile is being duplicated in the IB, and we have a lot 
of history that we can rely on for the accuracy of our cost 
estimates for the projected cost.
    Mr. Spratt. And is the sea-based variant about the same 
cost as the land-based mobile variant?
    General O'Reilly. Sir, they are two different variants 
obviously, but they are identical in their fire control system 
and the radar and the launcher components. They are the same. 
There is some integration costs we spend when we integrate it 
onto a ship. It is about $45 million to upgrade an Aegis ship, 
of which there are over 80 today, to upgrade them to have 
ballistic missile defense capability. And a land-based SM-3, to 
prepare the site, there is about $150 million for site 
preparation. And then to buy the same components in total, it 
is about $350 million for one of those sites without the 
missiles, which right now we are projecting a minimum of 24 
missiles at each site. So that would be $240 million 
additional.
    Mr. Spratt. In terms of mobility and the effectiveness 
associated with being able to move, the GMD, as I understand 
it, is about 25 tons and the SM-3 is about 2 tons?
    General O'Reilly. Yes, sir. The GMD is a 25-ton missile. It 
is 50 feet long. The SM-3 I series missiles are 1.2 tons and 
the SM-3 II would be a 2-ton missile. All of those SM-3 
variants will fit and be integrated into today's Aegis weapons 
system.
    Mr. Spratt. Are you confident we can find locations in 
southeastern Europe where these can be optimally deployed?
    General O'Reilly. Yes, sir, because the actual capability 
that we believe we have, our simulations verify that, and our 
independent assessments show that it actually covers parts of 
the water around Europe, so that means we have flexibility of 
where we can place them. It doesn't have to be in one 
particular country, it just needs to be in the southeastern 
part of Europe and in the north-central part of Europe, and it 
can be in many different countries. We have options.
    Mr. Spratt. This is because you have got forward-based 
radar and sensors?
    General O'Reilly. Yes, sir, that is key, having that 
forward based radar in the southeastern part, or airborne 
sensors, which we are developing, or satellites.
    Mr. Spratt. For some time we have talked about having a 
midcourse discrimination system, tracking and discrimination 
system, Space-Based Infrared System-Low (SBIRs-Low) at one 
time, I think the acronym now is STSS, and you just launched 
two STSS's. Does that mean that some of the many problems we 
have coped with with respect to these SBIRs-Low and the later 
variants have been overcome now? And to what extent is the STSS 
a key component of your forward based sensor system?
    General O'Reilly. Sir, the STSS is a demonstrator system. 
We want to demonstrate the engineering required in order to 
build another system which would be far simpler. The STSS was 
designed against an old threat, designed where there would be 
hundreds of ICBMs in the air at any one time, and it was able 
to cover the entire Earth. We are using these satellites now 
because they are available, the two of them, to be doing an 
extensive amount of testing over the next couple of years to 
verify the requirements to build a much simpler system that is 
focused on missile defense and would only cover certain bands 
of the Earth that we are concerned about, which cover the 
threat, obviously, as we see it. That would be a far simpler 
system and we believe much more producible, much more reliable.
    Mr. Spratt. Thank you all for your testimony.
    The Chairman. I thank the gentleman.
    Mr. Akin, the gentleman from Missouri.
    Mr. Akin. Thank you, Mr. Chairman. A couple of quick 
questions. I guess it was a little more than a year ago that we 
were on the ships and I asked the question, can that SM-3 stop 
an ICBM? And they said maybe 1 in 100, if you are lucky but, 
really, you can't do that. So to stop an intercontinental, 
really long-range, three-stage kinds of missiles, you have to 
go to your SM-3 Block IIB that you are planning?
    General O'Reilly. Yes, sir.
    Mr. Akin. And that missile is going to be ready about what 
time, 2020?
    General O'Reilly. Sir, we have used very conservative 
planning factors, that we completely test that system. We would 
start testing the booster portion of it in 2013, 7 years ahead 
of time. So we have laid in an extensive amount of time to test 
and deploy this. But we would conduct much of the testing in 
the 2016 timeframe, a decision in 2018, and then two more years 
we are projecting before we would deploy it. It is very 
conservative.
    Mr. Akin. So in a way, the first thing I am hearing is that 
there is a gamble in what you are proposing, and the gamble is 
that Iran isn't going to develop an ICBM before 2020?
    General O'Reilly. No, sir. We have the Ground-based 
Midcourse Defense System in Alaska and Vandenberg to protect us 
today against an Iranian threat.
    Mr. Akin. Will the GBIs in Alaska or California, can they 
protect against a launch from Iran to hitting our country? 
Could they go that other way? I thought they were mostly aimed 
toward--they can go both ways?
    General O'Reilly. They can go both ways. Sir, if you look 
at the Earth from a polar projection from the North Pole, you 
will see that actually the closest part of the United States to 
Iran is Alaska, and it is in a prime location for both threats. 
And that forward-based sensor, that is why it was proposed in 
the previous architecture and we are keeping it in this one, 
significantly contributes to our ability to track anything 
coming out of Iran for missiles being launched, interceptors 
out of Alaska.
    Mr. Akin. Would the missile, if the missile were launched 
at, say, a European ally from Iran, would that be an ICBM or 
would that be more just a ballistic missile?
    General O'Reilly. The southeastern part of Europe today is 
within the range of medium range ballistic missiles. Literally, 
the range is between 1,000 to 2,000 kilometers, is that class 
of missile, and that stretches over more than half of NATO.
    The threats that we see, the ones we are most concerned 
about right now, are 2,000 kilometer threats, which today cover 
most of southeastern Europe. And that is the threat we want to 
address, as General Cartwright said.
    Mr. Akin. The SM-3 works okay for that?
    General O'Reilly. Yes, sir.
    Mr. Akin. The second question I had is, it seems like it is 
tremendously effective, I mean it is very expensive to have 
whatever it is, five or six ships on station all the time 
providing this kind of coverage. It seems like that would be 
far more expensive.
    I have been here nine years, and I keep hearing, ``boy, we 
don't have the ships that we need.'' And particularly our Aegis 
class, our missile destroyers, Aegis on the destroyers, there 
is a tremendous number of requirements for having those working 
in different places. And now, all of a sudden, we are 
absorbing, what is it, six of these ships in order to do this 
particular proposal, as opposed to a ground-based kind of 
approach.
    Doesn't that seem to be very cost-ineffective?
    General Cartwright. I will jump in, if it is all right, 
sir. For the last five years, we have been doing this in the 
Sea of Japan. We don't put them on station permanently. Because 
what we are dealing with is a pad launch system, we can see 
that very visibly, and so we give ourselves a cushion. We 
generally send two ships out. It only takes us a couple of days 
to get them out there, so we don't tie down a mobile system, 
which is very versatile. We put it there when we know we need 
it.
    The two ships are there, one is on station and the other 
one is protecting the ship, and they just swap back and forth 
for relief. But that is generally the way we approach it.
    We intend to do the same for this 2011 system; have three 
different sites, have them able to close in a couple of days to 
the site once we see something moved to the pad.
    Mr. Akin. You are assuming you are going to have a day or 
two-warning so you can get in position.
    General Cartwright. What we have seen to date, even with 
the most responsive systems, is we generally have five or six 
days.
    Mr. Akin. One last question. That is, my understanding was 
that you were going to network all of these sensors and radars 
anyway in SM-3. Is this anything new than what we were planning 
to do anyway?
    General Cartwright. It is only a maturation of the 
technology now to move it towards a production capability and 
an operational capability versus a pure testing.
    Mr. Akin. So this has always been on the drawing board to 
do this.
    General Cartwright. The scale has changed. And the one 
thing that has technically changed, as you alluded to earlier, 
is the 2020 capability, that is new. The ability to get at the 
boost, or the early flight phase, is new.
    Mr. Akin. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Secretary Tauscher, good to see you again. We also miss you 
around here. This place has never been the same since you left.
    Secretary Tauscher. Thank you.
    Mr. Ortiz. Let me ask both Secretaries if you believe there 
is a potential opportunity for cooperation with Russia, 
including the possibility of Russia providing radar data, and 
do you believe that such cooperation would be in the best 
interests of us and NATO? Do you think there is a possibility 
now that we know they do have missiles, the Iranians? So if you 
could elaborate a little bit on that?
    Secretary Tauscher. Thank you, Mr. Ortiz.
    I want to restate that nothing that we did had anything to 
do with Russia, but we were obviously knowledgeable of the 
ancillary benefits of working more closely with Russia.
    The Russians have an agreement with us right now to go 
forward on a joint threat assessment and a number of things 
that President Medvedev and President Obama agreed to when they 
met in July. I will be meeting with my Russian counterparts in 
about 10 days in Moscow to talk about a number of things, but 
missile defense is one of those issues.
    We have a Russian NATO council that has been moribund but 
now has been restarted. Our NATO allies are very interested in 
working and engaging with Russia. Russia shares the same threat 
we do from short- and medium-range and long-range from Iran. So 
there are a number of pieces from this.
    But I want to make it very clear that while we have an 
ambitious agenda with Russia, we are negotiating a New START 
Treaty right now, it is very clear that nothing that we did had 
anything to do with getting something from Russia. There was no 
quid pro quo. But it is obvious as there are many things 
happening that there are ancillary benefits to them.
    Clearly the ``reset button'' that Secretary Clinton had 
talked about and the relationship between President Medvedev 
and President Obama is one where we are going to try to work 
cooperatively on those things we can, and missile defense is 
one of those things, and we will be talking to them about it in 
the next few weeks.
    Secretary Flournoy. Sir, I would just invite General 
O'Reilly perhaps to comment on the technical aspects of what 
would be gained from data from Russian radars as part of this 
system.
    General O'Reilly. Sirs, I visited Gabala two years ago and 
had a firsthand review of the capability of that very large and 
powerful radar. The frequency is one that allows a great amount 
of surveillance. It is a very good surveillance radar for an 
extensive part of that part of the world, very powerful, very 
large aperture. It is very good for observing missile tests. It 
is very good for preliminary tracking.
    More detailed tracking, you require a more precise radar, 
and the Russians are building one in Armavir, Russia, and that 
capability is similar to what we have in the U.K. and our other 
early warning radars.
    So our architecture was designed without those radars in 
consideration, but they are in a very good location for 
observing any missile activity in southwest Asia and conducting 
tracking on the same order of capability, especially from 
Armavir, early in a missile's flight heading towards the United 
States.
    Mr. Ortiz. Thank you so much.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman from Florida, Mr. Miller.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. First off, I want to 
thank all of you for being here. I want to recognize Secretary 
Tauscher. We do miss you, and we are glad to have you here.
    I want to start off with talking of some differences and 
some agreement. I talked to General Cartwright yesterday and I 
told him that I agree with what the two generals are saying, I 
just don't agree with the conclusion. And I think that it is 
important for us, though, when we have a difference of 
conclusion, that we at least go down the things that we agree 
on. I think some of the disagreement comes from, also, a lack 
of understanding because the terms get confused.
    We have short-range and medium-range and intermediate-range 
and ICBM missiles that are faced towards us. We have Aegis and 
THAAD and SM-3, IA, IB, IIA and IIB that don't quite exist yet, 
and the ground-based interceptors. The problem is you get in a 
discussion of what matches with us what and I think that 
confuses the discussion somewhat.
    So let's go with what we agree on. I think we all agree 
that Iran has a missile program. They are seeking ICBM missile 
technology that would reach the United States. They are seeking 
missiles that are capable of reaching the major population 
centers of Europe. We all agree. I think we all agree, and I 
think we believe, that Iran is seeking nuclear weapon 
capability. So we are looking at the future of missile 
technology that, perhaps, is nuclear capable.
    General Craddock testified that he believed the 
intelligence indicated that by 2015, they could have the ICBM 
technology that reaches the United States. Now, I have read the 
new National Intelligence Estimate that, supposedly, all this 
new threat assessment is based upon, and I think we could all 
agree that there is nothing in that intelligence that says that 
they won't get that by 2015. They could get it earlier, and the 
intelligence certainly says that.
    For the ground-based missile system, General O'Reilly, you 
previously testified that, upon ratification, it is four years 
for the radar to go in, five years for the interceptors to go 
in. I believe nobody believes that that has changed.
    So we can all agree that, under the best scenarios, we 
could have had that system in place by 2015. I believe it could 
have been 2014 if we had moved a little quicker, but at least 
by 2015. So the 2015 for GBI and the 2015 for Iran's possible 
capability match.
    Let's go further, then. The White House plan, though, 
doesn't address ICBMs until 2020. It is right up on their web 
site. Now, that is not accounting for existing systems and 
existing programs; that is just the alternate system to the one 
that was scrapped. That is the comparative. The comparative is 
what is being scrapped, 2015, and what is going to be provided 
as an alternative, and by the White House's own statements, 
that is 2020. Major European population centers don't receive 
protection until 2018. Again, their 2020 of the White House and 
2018 is all compared to 2015.
    Now, I love the words ``proven'' and ``tested.'' We hear 
that all the time, we need systems that are ``proven'' and 
``tested.'' We all know the SM-3 Block IIA has not been 
completed and has not been tested. It is intended in this new 
proposal to be the population centers for Europe protection. 
And we also know the SM-3 Block IIB, which is supposed to 
provide the protection to the United States, doesn't even 
currently exist. Again, the comparative being to the GBI that 
would have been going into Europe, which does exist, is a 
tested system and expected in the two states to have its 
completed testing by 2012.
    We all know, and we agree, that the International Atomic 
Energy Agency says that Iran has the capability to produce a 
nuclear weapon. They issued their statement on the same day 
that the President scrapped this system. We all agree that the 
missile defense assets that we have in Alaska were intended to 
be 40 previously, has been cut this year to 30, so as a backup 
for our protection from ICBMs from Iran it has been reduced 
from 40 to 30. Its capability has been reduced. And we all 
agree that it is not really sufficient to protect the United 
States solely, or the alternative from the White House wouldn't 
include another plan that bolsters it. The White House is still 
proposing a system that would, with the SM-3 IIB, that would 
support it.
    So what I want to know is in the 2009 budget, if you look 
to the 2009 budget, what is new, and what is not new, in what 
you are proposing? Because it looks as if that what was 
forecast in 2009 includes substantially what the White House is 
now touting as a new system. Could you do that comparative for 
me, please? 2009 until now, and this system.
    General O'Reilly. Yes, sir. First of all, the way our 
architecture is laid out, the GBIs in Alaska are not the 
backup; they are actually the primary system to defend the 
United States, the homeland defense.
    Second, in 2009, we were not investing in the technologies 
such as the sensor ones that we have referred to several times 
as so critical, our UAVs and our integration of that with the 
rest of our sensored network.
    We also were not procuring the THAADs and the Aegis 
systems, and the number of Aegis systems and numbers of missile 
that we are investing in now. The investment was $400 million 
less than it is in the fiscal year 2010 budget for procuring 
those missiles alone, and then another $200 million for further 
investment into the Aegis system. So there is an acceleration 
that wasn't there before that is now, in a greater quantity of 
both of those.
    The Chairman. I thank the gentleman.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, and welcome all of 
you and thank you for the work you do for the United States. Of 
course, I have a couple of questions for our former Member and 
Under Secretary.
    You know, a lot has been said in the papers, and I have 
been really reading them, about how this is a new direction, 
how President Obama is changing everything. I think in the 13 
years I have sat on this committee, 11 of them have been on the 
Strategic Forces Subcommittee. The last three years or so were 
chaired by you, Ms. Tauscher. And I think the Congress actually 
began to change the course of what was going on with respect to 
missile defense and, in particular, our short- and medium-range 
partners and seeking partners.
    I remember going to Russia, to Poland and to the Czech 
Republic with you to discuss these issues with our allies and 
with those that we wanted to help with this real threat of 
short and medium range missiles coming to Europe or to the 
southern portion of Russia. So as I read the newspapers, it 
surprises me that people think this is a new direction.
    I am sorry, I missed part of this because I am also on 
Homeland and we have had some other meetings going on. But 
could you just talk a little to what were the last three years 
and how the Congress actually changed this direction, rather 
than just one man walking into the room and making a change?
    Secretary Tauscher. Well, Congresswoman, I will say that 
President Obama does stand for change and, in the end, it is 
the President's decision to make the change that has been made. 
And I think that the Congress certainly in a bipartisan way 
over the last few years realized that there was a current 
threat of short- and medium-range missiles targeting our NATO 
allies, our forward-deployed troops and our friends and family 
members, and that is why the Congress, who looked at the 
previous administration's budget submission, made some changes 
in the investment strategy to increase both the investment in 
THAAD and in targets and in SM-3.
    But I think the reality is that, when this new 
Administration came in, there were two factors that were real 
change agents for what has become this new architecture. The 
first was the intelligence. Every administration comes in and 
orders a new intelligence assessment on many different things. 
There are lots of reviews that go on. The President ordered new 
intelligence and he ordered a new Ballistic Missile Defense 
Review (BMDR).
    When he did that, it was very clear that there were two new 
data points. The first was that the assumptions that the 
Intelligence Committee had made about the maturation of the 
long-range ballistic missile capabilities of Iran had not moved 
as expected. In fact, the short- and medium-range had moved 
dramatically further than the long- and medium-range.
    Knowing we are protected by Fort Greely and by Vandenberg 
for both the Korean and the Iranian threat, the other second 
piece was that the maturation of the technology--especially 
sensor technology--over the arch of the last few years, made it 
clear that there was a way to protect now with current proven 
technology, current threats, our NATO allies indivisibly as 
opposed to about a third of them being left out in the previous 
system.
    So I think it was the intelligence and the ballistic 
missile review that really took the President to the place 
where--the review also included for the first time the 
combatant commanders, which I think was very fundamentally new. 
And as General Cartwright has spoken, the combatant commanders 
have a list of requirements that they wanted to have missile 
defense meet.
    So I think that those are the three different things that 
caused us to look at a change, and I think the President was 
compelled by the fact that you could take the architecture to 
meet the threat, to do it faster, to do it more cost-
effectively, you could bring NATO in, you could do all of NATO 
and you could do it in a way that still protected the United 
States against the current threats and the emerging threats.
    Ms. Sanchez. And, Ms. Tauscher, were there meetings held 
all along for the last two, three or four years with our 
allies, with our NATO allies, with Poland, with the Czech 
Republic, at the congressional, at the administration level, to 
talk about some of these changes that might occur if, in fact, 
the data came back and told us there might be a smarter way to 
do this, or did our allies just get surprised by this?
    Secretary Tauscher. Well, as I said in my testimony, I 
think that there was lots of pre-consultation, and there was 
also lots of speculation and there was also lots of fueling by 
domestic press and others that, potentially, there might be a 
change. I think people got ahead of themselves, and the reality 
is that this is a better system for the current threat and the 
future threat, one that protects the United States and our 
allies in a way that is more cost-effective.
    Ms. Sanchez. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. It is good to have 
you all here today. This is for either one of the Under 
Secretaries.
    To an outside observer, the timing of this announcement is 
curious. It was done before the Administration's Ballistic 
Missile Defense Review and the Quadrennial Defense Review were 
completed. It occurred on the eve of negotiations with Russia 
on the START follow-on treaty, and we know that President 
Medvedev has suggested progress on START could hinge on the 
U.S. giving up its European missile defense plans.
    Why didn't we wait to make this announcement until after 
the Ballistic Missile Defense Review or the Quadrennial Defense 
Reviews were complete?
    Secretary Flournoy. Sir, let me take a stab at that. I 
think the most pressing reason was that we felt that there had 
been extensive interagency discussion and the architecture that 
General O'Reilly and General Cartwright have described so well 
was really emerging as the strongest possible option, and we 
realized we had an opportunity to not only shape the fiscal 
year 2011 budget, but to also try to influence where things are 
right now.
    We didn't want to miss either of those budget 
opportunities. The truth is, if we had waited all the way into 
early next year when things were formally due, we wouldn't have 
the same opportunity to make sure the money is flowing in the 
right direction in support of a new architecture. So that was 
the primary driver.
    But with regard to relationship to START, I think that both 
President Obama and, actually, it was agreed by Medvedev in 
issuing instructions to the START negotiators, there is no 
linkage between START and ballistic missile defense. We refused 
to acknowledge or accept that linkage from the get-go in these 
negotiations.
    The truth is, any time between now and December is a bad 
time in terms of that perceived linkage, because the START 
negotiations are ongoing, and any time we roll out this 
decision between now and the end of the review, there are some 
people who would link it to START, even though that is not what 
drove the decision.
    So there was no good time from that perspective. What we 
did is we said, ``look, it is too important not to miss the 
window.'' It is very important not to miss the window on 
influencing the 2010 and 2011 budgets appropriately in this 
regard.
    Mr. Lamborn. Under Secretary Tauscher.
    Secretary Tauscher. START is a strategic offensive weapons 
negotiation, not defensive, and we have a very, very big bright 
white line that stops anybody from going on that side, and 
START expires on December 5th. So we are good Americans, we can 
multitask. Things are happening in a very crowded channel. But 
we made it very clear that START was not an environment or 
forum to discuss missile defense, and that is the way we have 
kept it.
    Mr. Lamborn. Thank you. Now, you have referred to the 
budget several times. I have a budget question. Why couldn't we 
have funded both the 10 interceptors in Poland and the radar in 
the Czech Republic and continued, at the same time, because we 
can multitask, with expanded theater missile defense? These are 
not mutually exclusive programs.
    If it is a budgetary issue, why are we cutting missile 
defense by $1.2 billion in the fiscal year that is just 
starting today, when in the last fiscal year that ended 
yesterday, we have an annual deficit of about $2 trillion, 
1,500 times this $1.2 billion.
    Secretary Flournoy. Let me clarify. I think the timing of 
the decision to go ahead and roll out this piece was influenced 
by the budget calendar. The architecture was not driven by 
budgetary considerations. It was driven by what General 
Cartwright and General O'Reilly have described is what best 
meets both the needs of the combatant commanders and the needs 
of the Nation in the most cost-effective way possible.
    But I will defer to either of you, if you want to add 
comment on that.
    General Cartwright. My sense here is that from a budget 
standpoint, to lose a year by not giving you the opportunity to 
review gave us a window that we wanted to get this to you. Did 
it have to be the exact day? No. As the other members here have 
said, the little bit of the misinformation that got out there 
drove us to believe we needed to clear up some misperceptions.
    But we clearly have taken several issues out of the QDR, 
out of the Ballistic Missile Defense Review and out of the 
space review, and brought them forward to get us to not lose a 
year in the debate in moving to any direction change that the 
department might want to take.
    So that really gave us this opportunity. We took advantage 
of it from the standpoint of the budget calendar, not from the 
standpoint of cost.
    To your issue of concern about should we do both. We are 
conscious. Even though our numbers are large, we are conscious 
about being good stewards of the resources that you give us. We 
are going to continue, or we plan to continue, to do the 
testing necessary to ensure that that two-stage ground-based 
interceptor, in fact, is real, not just paper, and that if all 
else fails, as Congressman Turner talked about, we do, in fact, 
have a way to look at this which was along the lines of the 
original program.
    Also, that radar that we were going to put in the Czech 
Republic physically exists. It is sitting on Kwajalein Island. 
We understand the technology to take it from its current 
technology to what we need if we had to deploy it. So we have 
not ceded or given up, but we have, in fact, changed our focus.
    Mr. Lamborn. Thank you.
    Mr. Spratt [presiding]. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. To our former 
colleague, we miss you too, but we are terribly proud of the 
job you are doing in your new position. Welcome to all of you 
and thanks for your work.
    I have a question for both General Cartwright and General 
O'Reilly. The United States has already deployed a forward-
based radar in Israel, and we have cooperative missile defense 
programs with that country. The main missile threat to Israel 
comes from Iran's growing number of medium range missiles. The 
new architecture is intended to defend against these same kind 
of Iranian missiles.
    So my questions are, overall, how would you describe the 
impact of this new strategy, the new architecture, on Israel's 
security? That is number one. And, number two, can you tell us 
whether the new architecture will help improve the ability to 
defend Israel against an Iranian missile threat or missile 
attack?
    General Cartwright. I will start, and then I will let 
General O'Reilly chime in.
    The system was put there last year to allow us to begin to 
do the testing and the integration work that is going on, not 
only with the Patriot systems that we have historically 
deployed to Israel, but as we start to move, as we speak today, 
the command and control system for the THAAD has also now been 
moved out so we can start to integrate those pieces and the 
Aegis piece.
    So what that radar brings to the capability to defend 
Israel as we move to the future is, as I talked about in my 
statement, this ability to get at the large raids, number one, 
so multiple missiles coming in towards Israel; and then, number 
two, to be able to see further than the organic sensors of any 
of those systems.
    So now they can see out much farther, assign inbound 
threats to specific weapons and specific sensors within 
Israel's footprint, and defend the country much more 
effectively. That would also reduce the number of missiles that 
we have to build, because now we don't have to build two and 
three for every threat coming in. We can actually be much more 
efficient. So from a warfighting standpoint, that is what this 
is going to do.
    The second piece is as we looked at the future, that 
ability to see further than the organic sensors is the testing 
and the integration that will go on. So a sensor not 
necessarily associated with a weapon, being able to see 
farther, pass that information to the weapon or the sensor that 
supports that weapon, and get that missile off sooner so that 
it is destroyed before it gets anywhere near the friendly 
nation is the second piece that brings.
    I will defer, then, to General O'Reilly.
    General O'Reilly. Sir, I would just like to add the fact 
that this architecture, one of the fundamental capabilities and 
attributes of this architecture to protect Europe is applicable 
to any theater in the world. It is mobile, and our capability 
on Aegis ships can quickly move into that region. We are 
already proposing them to be in the eastern Mediterranean, and 
they can provide an entire additional layer of defense over 
Israel, as well as the enhanced sensor capability that General 
Cartwright was referring to.
    Mr. Reyes. Very good. Thank you, Mr. Chairman. I yield 
back.
    The Chairman [presiding]. I thank the gentleman.
    Mr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman, and I want to thank 
the panel. You are obviously very engaged and very expert on 
this information. I thank you for your preparedness on this.
    I hear what you are saying, and I will let you sort out who 
should answer this question, by the way. I hear what you are 
saying about, perhaps, the lagging development of ICBMs from 
Iran and also the need to kind of shift towards the mid-range. 
But, you know, our intelligence has never been 100 percent, and 
there needs to be a margin of error. I hear what you are saying 
about, we have got the backup systems in Alaska. We also know 
that no system is 100 percent, things do get through.
    So that brings us to the question of North Korea. Some 
believe that North Korea is pursuing ICBM capability. It has 
also been reported that North Korea supplied Iran with 18 BM-25 
IRBMs in 2005. Does this new threat assessment account for the 
possibility that Iran could receive foreign assistance and that 
that, through osmosis, could occur a lot faster than predicted, 
and do you believe North Korea would share any IRBM or ICBM 
technology it has developed with Iran?
    General Cartwright. I would be happy to start and then let 
members join in here.
    For the ICBM threat, our primary capability still resides 
in Alaska and California. That we have never ceded and are not 
going to.
    The systems that the Iranians and the North Koreans have 
demonstrated thus far are pad-based. So in other words, there 
is only a certain number of pads, two in North Korea, three or 
four in Iran, so their ability to generate large numbers is 
still very nascent and will take time.
    The capability to move from where they are today, even with 
assistance--and I am a worry wart, so I am where you are on 
worrying about this--the next steps are extremely visible. In 
other words, they have to occur up above the atmosphere where 
everybody in the world can watch them. Those are the steps that 
allow you to take that last stage, separate a weapon from that 
last stage, get it to a stable configuration, find a place over 
the Earth to penetrate the atmosphere, survive that penetration 
with both the reentry vehicle (RV), the vehicle and the 
contents, and that is a very violent activity, survive the heat 
in the reentry, and then actually find something you would 
impact. Each of those steps is very visible, so we will know 
when they move forward.
    The one that I probably worry the most about is their 
ability to move from a pad system to a mobile system, to an 
erector. Then they can be in places that we don't necessarily 
watch every day. So if I am to worry about something, that 
would be it. But, again, they would have to go through these 
other steps before they can move to the mobile configuration.
    As we set this new system up----
    Dr. Fleming. Could I clarify something? When you say it is 
very visible, are you talking about in terms of testing and 
predicting?
    General Cartwright. Yes, sir. So, unlike what we have done 
up until today, where much of this engineering occurs in labs 
or in test places, this is something that has to be a launch, 
it has to occur, it is very visible, and everybody in the world 
can pretty much watch it and watch the progress there.
    Because we can see that, and because this system is leading 
anything else that we have had, the system we are proposing, by 
five to seven years, I am much more comfortable that if they 
surprise us, one, we will see it, two, we will have the lead 
time to actually field it. And I will let General O'Reilly jump 
in, but we are being conservative. If we field, much as we did 
with the GBI because of the threat earlier than all testing is 
complete, then we will have to do that. I will certainly come 
here and recommend that, because something is better than 
nothing to defend. But the next steps tend to be very visible.
    Secretary Flournoy. If I could just add, given my boss's 
background in the intelligence world, he asked exactly these 
questions: What if the intelligence is wrong? What if they gain 
assistance and the ICBM threat emerges earlier? So he was very 
keen on, A, ensuring that the GBI defense we have of the 
homeland now remains; two, that we go ahead and put forward in 
Phase One, the earliest part of this new architecture, the 
forward-based radar to enhance seeing what is coming from Iran; 
and, three, that we really focus on developing this new 
capability in Phase Four that should give us the ascent phase 
capability, which is a game changer.
    And, finally, that we keep the development of GBI, the two-
stage GBI on the books as a hedge in case things come earlier, 
in case there is any kind of technological challenge with the 
later models of the SM-3.
    So those things together are what made him comfortable in 
answering your question and going forward with this new 
architecture.
    The Chairman. I thank the gentleman.
    Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    General Cartwright, I am not surprised but heartened to 
hear that you are a worry wart. I am glad we have a panel of 
worry warts that are eminently qualified. Certainly our friend 
and colleague, Secretary Tauscher, welcome back.
    The public record of our intelligence suggests that Iran 
has not demonstrated the capability to use an intermediate 
range missile. Let's assume that that is wrong. Let's assume we 
are completely wrong about that and that Iran either is quickly 
developing that capability or has it now.
    I want to compare the old plan that we were operating under 
to meet our obligations to our interests and allies in Europe--
Central Europe--and then the new plan under which we are going 
to meet our obligations to our allies and interests in Central 
Europe.
    If it were 2012 and the Iranians launched an intermediate-
range missile with a nuclear warhead at Central Europe, under 
the old plan, what could we do about it?
    General Cartwright. Nothing.
    Mr. Andrews. Nothing. My understanding is, the reason for 
that is that the deployment date for the old plan was around 
2017, is that correct?
    General Cartwright. We started originally at the 2015 
timeline. Because of challenges that we have had in basing and 
other things, 2017 to 2018 now would be realistic.
    Mr. Andrews. There is a history of slippage on that date, 
isn't there?
    General Cartwright. Yes, sir, there is.
    Mr. Andrews. And under the new plan you are proposing, we 
would have deployable capability in 2011, is that correct?
    General Cartwright. Yes, sir.
    Mr. Andrews. So we would have in place in 2012 some assets 
that would help us deal with this threat, if I understand it. 
So let's talk about what those assets are.
    It is my understanding that under the old plan, it was 
essentially 10 missile silos, is that correct?
    General Cartwright. Ten silos that would be based in Poland 
was the plan.
    Mr. Andrews. Ten silos based in Poland. And the new plan 
relies upon Aegis ships, which have SM-3 block IA missiles, it 
relies on the AN/TPY-2 radar and a THAAD element as well. Is 
that essentially correct?
    General Cartwright. Yes, sir.
    Mr. Andrews. So it is sea-based and it is mobile land-
based.
    General Cartwright. Yes, sir.
    Mr. Andrews. Which of those two do you think is more 
vulnerable to attack from the enemy if, in fact, it had the 
ability to do these intermediate changed missiles?
    General Cartwright. A fixed site.
    Mr. Andrews. So the fixed site wouldn't be deployed until 
2017 or 2018 and, in your opinion, it is more vulnerable than 
the sea-based and mobile land-based system. I want to ask you, 
is that a fair statement?
    General Cartwright. Yes, sir.
    Mr. Andrews. Then the other thing I want to ask you is 
about cost. Now, I will say this to you. It is my view--and I 
think it is almost universally held here--that if there is an 
imminent threat to this country and its people and its 
interests and its allies, cost should not be a consideration. 
We need to do what we need do.
    But since there are options that we have, it is my 
understanding--and maybe Secretary Tauscher would be the best 
person to answer this--that is there is a qualitative 
difference in cost between the new plan that you are presenting 
and the old plan. My understanding is that the cost is about 
$70 million per missile? Or is it per silo?
    Secretary Tauscher. Actually, it is General O'Reilly that 
is better at this, but it is about $70 million for the GBIs.
    Mr. Andrews. And it is about $10 million----
    Secretary Tauscher. $10 million to $15 million for the 
Block IIA, yeah.
    Mr. Andrews [continuing]. For the new plan.
    I want to talk about flexibility, as well. My understanding 
is that the weight of the missiles under the old plan, the 
system under the old plan, is about 25 tons. Is that right?
    General O'Reilly. Yes, sir.
    Mr. Andrews. And the new? What does the new one weigh?
    General O'Reilly. 1.2 tons for an SM-3 Block I series and 2 
tons for an SM-3 II.
    Mr. Andrews. So if the Iranians ramped up their capability 
in a hurry and we had to be more flexible in a hurry to deal 
with that capability, which of these two options is best, from 
your point of view, General O'Reilly?
    General O'Reilly. Sir, the new option.
    And the reason I proposed as my recommendation to go 
forward with this Phased, Adaptive Approach was the rigidity, 
which you are referring to, of the previous approach. The 
threat does change, and our ability to react to it. If there 
are intermediate-range missiles, even if we had the system in 
2012, the first five missiles would consume those GBIs.
    Mr. Andrews. And the final question I would ask is that 
this is the first phase of, if I understand, a four-phased 
approach that would further buttress and bulk up this. Is that 
right, Secretary Tauscher?
    Secretary Tauscher. Yes, it is. This is why it is phased 
and adaptive, is to deal with not only the threat but the 
emerging technologies and to match those as best we can.
    Mr. Andrews. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And I thank all of you for being here. General Cartwright, 
I have just a profound respect for you. And, General O'Reilly 
and Secretary Flournoy and, of course, Secretary Tauscher, I am 
grateful that you are here.
    I want you to know that I believe all of you are committed 
to the cause of human freedom in America, and so I hope you 
will grant me diplomatic immunity. There is no intent on my 
part to challenge anyone's motivation here because I believe 
you are all committed to this country.
    Let me just start by saying, General Cartwright, I 
completely embrace all that you are saying, in terms of the 
geometric increase in the threat of short- and medium-range 
missiles and the complexity and the array that we face, and 
some of the array challenges. That is one of the reasons why 
some of us have been a little bit upset that one of our boost-
phase systems in Airborne Laser (ABL) has been cut back. That 
is a real system turned into a paper one. It is almost the 
opposite of what we have been talking about today.
    But I think probably the thing that is of the greatest 
concern to me today is that this new approach has been 
juxtaposed with the old approach. And I think that is a false 
dynamic, because the new approach was essentially anticipated 
by the previous administration. We have been moving in this 
direction. I find, quite sincerely, very little in the new 
approach that is truly new. I think we have been moving in this 
direction, again, thanks a lot to General Cartwright and the 
philosophy that he has embraced, and along with General 
O'Reilly. And so I don't see a great deal of new.
    I think really what the debate here is, is the elimination 
of the GBI site in Europe which, essentially, was to provide a 
redundancy protection for the U.S. homeland. And to be able to 
throw in some potential protection for Europe was a freebie and 
a good thing.
    And my greatest concern is Iran's march toward becoming a 
nuclear-armed nation. And I truly believe that one of their 
great goals, of course, strategically and tactically, is to be 
able to threaten and hold at risk American assets, American 
homeland. And that if, indeed, we were able, within the 
timeline offered, to demonstrate to them that we could 
intercept those both at the level of Poland--which, if you draw 
a line right between Iran and New York, you go right across 
Poland. And that may say something about your physics, Mr. 
O'Reilly. They may have been correct.
    The reality is that I believe that this new system that we 
talk about that was already on the books will still come too 
late to play much role in the calculus that Iran has in moving 
forward with their nuclear program. And I think that the 
European site would have devalued their program to an extent 
that perhaps--perhaps--some of our sanctions might have had 
some effect.
    So I guess then the concern that I have--let me just quote 
General O'Reilly. ``The ballistic missile defense system is 
daily becoming more global. The defense of deployed forces, 
allies, and friends against short- to medium-range ballistic 
missiles in one region, theater, will be buttressed by 
additional standard SM-3 interceptors, more Aegis BMD 
engagement-capable warships, the addition of initial THAAD fire 
units, additional sea-based terminal interceptors.'' Tying 
these assets together, as Mr. Cartwright said, ``will be a 
global command and control battle management and communications 
capability.''
    And, of course, the Bush Administration's budget turned 
over to the Obama transition team includes plans to field over 
400 SM-3 and THAAD interceptors by 2016. And I don't see in 
this new approach that there is going to be a lot above that by 
2016.
    So my greatest concern is simply this: in terms of 
protecting the homeland, the European site would have offered 
us some redundancy protection from long-range Iranian missiles. 
I think we all agree with that.
    And I am asking you, General O'Reilly, in terms of the 
timeline, are we having an additional risk to this country for 
any period of time because of the loss of the European site?
    General O'Reilly. Sir, no, I don't believe we are at 
greater risk because of the insufficiency, as I just testified, 
I believe, of our previous architecture.
    Mr. Franks. Let me interrupt you. You testified that 2015 
in the last situation. So you think that this new system is 
going to be able to provide the redundancy that the European 
site would by 2015?
    General O'Reilly. I don't think the old system would 
provide the redundancy that you are referring to. It is very 
questionable. And the concern is, as the intelligence 
assessments are showing, the number of intermediate-range 
missiles and medium-range missiles has grown to an extent that 
just having 10 interceptors over there would very quickly be 
consumed. And the secondary launch at the United States, those 
GBIs would--I am very concerned that they would ever be 
available for us.
    The Chairman. I thank the gentleman.
    Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    Mr. Spratt mentioned that his history with this issue went 
back to SDI. And I have to acknowledge that my history goes 
back to my father having General O'Reilly's job when I was in 
Vietnam and right after I got back from Vietnam. So my history 
is longer; certainly not as informed as Mr. Spratt's. But I 
have been in favor of missile defense for years and years now, 
and I happen to be a Democrat.
    And I think the good news that comes from this debate is 
kind of like mayors--I was a former mayor--we used to talk 
about how there is not a Republican or a Democrat way to fill a 
pothole. The good news that comes from this debate and that 
should be clearly understood by the country is that both 
Democrats and Republicans are in favor of missile defense. The 
technology has matured to the point where we don't argue about 
whether we should spend our money doing this. We argue about 
what is the best system, how should we spend our money doing 
this?
    I think it is extremely unfortunate that the Administration 
made the mistake--well, I guess it wasn't the Administration. I 
think we here in the House made the mistake of cutting the 
Administration's request for missile defense for this year's 
budget. That was a real tactical error. Because, you know, to 
ordinary folks out there, it simply suggests that the current 
Administration, or at least the current Congress, isn't as 
committed as the prior Congress was to the subject of missile 
defense. And that is just not so. But there is no way you can 
explain the cut any other way, at least to ordinary Americans, 
than this current Congress is just not as committed. So it is 
really unfortunate that we did that.
    It would be great if somehow we could reverse that in the, 
sort of, waning days here and free up the money to let you all 
do what you want to do. I accept from this testimony that you 
are all sincere, that you sincerely think this is the direction 
we should be headed in.
    And, frankly, General Cartwright, you have been in your 
post now for, what, three years? So you were a pre-Obama 
Administration person. Ms. Flournoy--you know, General 
O'Reilly, you have been doing this, and so you are pre-Obama 
Administration. And I accept that you are sincere in your 
description of having rethought all of this. I just think it is 
really unfortunate that we managed to cut the budget.
    If I could, I would like to ask how the new architecture--
and I know this is focused principally on Europe--how the new 
architecture protects us from an electromagnetic pulse (EMP) 
threat, a Scud missile launch from a scow somewhere in the 
ocean. I think that that is something that we really need to be 
thinking about a lot.
    It is one of the reasons why I requested language in the 
current authorization bill asking that the Department of 
Defense conduct a study of putting small nukes, nuclear power 
facilities, hardened nuclear power facilities, in all of our 
military bases around the country. I think that can be done, 
actually, with the private sector paying for it if they are 
sized in a way that gives power back into the grid. So I think 
it is a win-win, basically, for America. But from a national 
security perspective, I think it is very important, given the 
EMP threat.
    So, comments about what the, sort of, new world that you 
all are talking about here that most folks couldn't possibly 
understand unless they spent years studying this subject, this 
new world will enable us, as far as protection against EMP 
threats, rogue missiles, just one missile.
    General Cartwright. I would like to touch on, kind of, both 
of those issues, and then I will cede to the other members 
here.
    I worry about this because the reality is, the spectrum 
that we are dealing with is an ICBM to a terrorist. The weapon 
and the lethality is now exportable at both ends. And it is 
actually easier to deliver, unfortunately, at the more 
rudimentary end. And so, much of what we are trying to 
accomplish in the Quadrennial Defense Review is to make sure 
that we are, in fact, looking at both ends of this spectrum.
    At the terrorist end, which is generally the most 
challenging, how do you handle someone who really doesn't value 
their own life, much less the value of anyone else's life? And, 
generally, Clausewitz, you know, Sun Tzu, it is ``take that 
objective away from the enemy.'' And so, much of what we are 
doing we put in the role of consequence management, of 
protection, just by the daily way we do business, how we build 
our buildings now, these kinds of initiatives that would talk 
about protected and hardened power, protected and hardened 
communications that would allow us to make sure that, even if--
God forbid, that occurs--any enemy of the United States would 
understand that would not change our resolve or our ability to 
carry out that resolve.
    And that is the way I approach every day. Much of what we 
are doing in the Quadrennial Defense Review on this side of the 
equation goes to these issues about, how do you take the 
objective away?
    The Chairman. I thank the gentleman.
    Mr. Wilson, please.
    There is a series of votes, a 15-minute and two 5-minutes. 
These will not be the last votes for the day, however. There is 
a possibility we can finish. But, if not, we will come right 
back.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, for your leadership in 
this important hearing.
    Madam Secretaries, General, thank you for being here.
    Under Secretary Tauscher, I was grateful to be the first 
Member of Congress in the Congressional Record to praise your 
confirmation.
    I am just so concerned. I support a strong missile defense. 
I was taught by my predecessor, the late Congressman Floyd 
Spence, chairman of this committee, Armed Services Committee, 
that we have real threats; they need to be addressed. I 
believe, as Ronald Reagan said, that we can develop a bullet to 
hit a bullet. I am concerned this Administration is weakening 
missile defense.
    At the same time, Iran is proving its capabilities of 
developing nuclear weapons. Over the weekend, what a message, 
as they sent missiles with their new technology. I believe the 
fanatics who have hijacked the country of Iran--a great 
country, a historic country, ancient Persia--when they carry 
signs that say, ``Death to Israel, Death to America,'' they 
mean it.
    And I am particularly concerned--particularly Secretary 
Tauscher knows--I have a deep, personal affection for the 
people of Bulgaria, Romania, for Greece, for India. And with 
the missile tests this week, all of them are at risk. They are 
concerned. Ordinary Americans, as Congressman Marshall said, 
are concerned. Why are our enemies rejoicing?
    I would like to point out--and, Madam Secretary, I 
understand you recently returned from a trip to Europe to 
discuss missile defense. And while you were there, I would like 
to know the concerns of NATO officials, particularly from 
Eastern Europe, our new courageous allies.
    I have a personal interest. My daughter-in-law, Jennifer 
Miskowitz-Wilson, from New Jersey, is a very proud Polish-
American.
    What did our allies, our great courageous allies, say?
    Secretary Tauscher. Well, Congressman Wilson, let me first 
say, I don't think that this should be a question of false 
choices. Let me say that what President Obama has put forward 
is a system that will deal with current threats now, will deal 
with our European allies now and protect them against what we 
saw just this week is a robust Iranian short- and medium-range 
threat.
    The sense that we either have GBIs or we have this, is a 
false choice. The United States is currently protected against 
a long-range--and the North Korean threat by this system that 
is in Fort Greely and in Vandenberg. So, as General O'Reilly 
testified last year, the GBIs in Poland were a redundancy. The 
system is going to include the opportunity to deal with a 
future Iranian long-range threat against the United States as a 
redundancy.
    So I think that these false choices have got to be put 
aside in favor of what we think is a very robust system that 
deals with the current threat now and protects NATO allies 
first, in a phased way, and then indivisibly.
    When we saw our European allies, it was very clear that 
they had no idea what the Obama Administration's plan was going 
to be. We explained it to them. And, as you can see from the 
comments by Chancellor Merkel, President Sarkozy, our NAC 
members were very, very enthusiastic about it.
    Our Polish and Czech friends had to absorb what we told 
them, and we are in consultations with them. We have offered 
the Poles a future piece of the SM-3 deployment. The Czechs we 
are working on on a number of different things.
    So I think that what you see is, universally, our European 
allies have moved past the debate about what is going on and 
have absorbed and really appreciate what we are doing. And I 
think that that is really the opportunity for us to move 
forward on a system that can deal with current threats now.
    Mr. Wilson. General O'Reilly, our missile defense 
cooperation with Israel and with India have been mutually 
beneficial with technology. We know how talented the people are 
of Israel and India--large number of engineers.
    In your view, will the new missile defense architecture 
improve our ability to defend Israel and India from an Iranian 
missile attack?
    General O'Reilly. Sir, yes, from the point of view that 
this is a mobile system and it is very flexible. So it has 
applicability for deployments around the world.
    What is key is our ability to integrate with the host-
nation command and control systems and what they are trying to 
contribute to missile defense.
    And, in the case of Israel, we have clearly shown over the 
last year that we have a fully interoperable system, between 
our radar and their Arrow system. And we have shown that again 
off the coast of California earlier this year when we were 
testing, with all of our systems that we are proposing here 
working with the Israeli systems.
    Mr. Wilson. I am concerned for Israel and India.
    Thank you.
    The Chairman. I thank the gentleman.
    We will recess until the third vote is over and come right 
back, and we will take up and hopefully finish very quickly.
    [Recess.]
    The Chairman. The gentleman from Pennsylvania is 
recognized. We are back in session. So you are recognized for 
five minutes, Mr. Sestak.
    Mr. Sestak. Thank you, Mr. Chairman.
    General, I hope I am not redundant on these questions. I 
had to step over to the Education Committee.
    Can I ask you a question? You had spoken about, when 
missiles take off they are pretty similar. It is kind of like a 
telephone pole going up. It is a pretty easy shot.
    Now, let's say that this system that the Bush 
Administration wanted to have in Europe--which, it wasn't going 
to shoot it as it goes up. When the Russians shoot a missile, 
they have a lot of decoys in them.
    My understanding is that, if the Iranians happened to put a 
bunch of decoys on this missile and you don't get it in the 
ascent phase, that the Bush Administration's proposal in the 
Czech Republic and Poland wouldn't be able to handle that 
threat. Is that correct?
    General Cartwright. The radar, first in the----
    Mr. Sestak. The combination of the radar--the 2017 system.
    General Cartwright. You are exactly right, in that in the 
ascent phase you can't really deploy a bunch of decoys, and 
that is why the missile is so vulnerable--I mean, among other 
things. It is relatively predictable.
    In the system that was originally planned, which would be 
the ground-based interceptors in Poland and the radar in the 
Czech Republic, the radar in the Czech Republic had one 
function, and that was to discriminate between the RV and 
decoys as it left the atmosphere when they would be deployed.
    And so that was the value of that radar at the time. It 
really had no other function. And just to put one more piece on 
there, that intercept had to occur while it was in the range of 
that radar.
    Mr. Sestak. Correct. Well, my understanding is you would 
have had to need a second radar site in order to do that 
discrimination, not just one. Is that correct, General?
    General Cartwright. Only from the standpoint that that 
radar has to be queued. And that is what the radar down in the 
southeastern part----
    Mr. Sestak. Correct. So you would have had to have had two 
radar sites. So the system you were originally going to plan 
would have had to have another radar, then, for that 
discrimination.
    General Cartwright. When we got to the point at which the 
Iranians would be able to----
    Mr. Sestak. To do that.
    General Cartwright [continuing]. Decoys.
    Mr. Sestak. The second question I have is multi-mission 
tasking. My understanding is Navy ships tend to be able to 
handle submarine threats, missile threats from aircraft, 
surface threats, and others. Is this just one more threat that 
a well-planned crew could do, multi-mission?
    General Cartwright. It is. But to be fair also, when you 
dedicate the radar, when they set up the--technical, but when 
they set up the energy fences, this mission consumes all of the 
radar's activity. So that is why we keep the second ship out 
there, is to make sure that we have----
    Mr. Sestak. And if I am not wrong, is it a flip of the 
switch, basically, that switches it from----
    General Cartwright. Speed of light.
    Mr. Sestak. Speed of light. So it is a nanosecond to go 
from one mission to the other.
    General Cartwright. Yes.
    Mr. Sestak. My third question is, General, you had 
mentioned there was a shoot-shoot-look-shoot strategy. You 
know, I think you take two shots or something?
    General O'Reilly. Yes, sir. This architecture supports 
that. And our focus is to have that first shot as early as 
possible.
    Mr. Sestak. I guess my question is, as you go further down 
the road--you have 30 GBIs in Alaska, correct?
    General O'Reilly. Yes, sir.
    Mr. Sestak. If you wanted to, I mean--to get those two 
shots, if you had to, could you just add another 30 to get 3 
shots? Or do you just want to get the ascent phase?
    General O'Reilly. What you are referring to are two 
different systems, sir. The one in Alaska is a midcourse system 
that only engages after apogee.
    Mr. Sestak. I understand.
    General O'Reilly. So it only engages at the end. The GBI 
system that we were proposing for Europe also is a midcourse. 
We would have to wait until after the apogee, the highest part 
of the flight of a missile even coming into Europe. So if we 
had two opportunities, the first opportunity is a very limited 
one, only against certain trajectories towards the United 
States that you could have had that intercept.
    Again, as I testified before, I am very concerned about 
having those missiles available, because there is a very large 
number of missiles that are threatening Europe now that you 
would want to use every missile you possibly had. And under the 
old architecture, you would be engaging those shorter-range 
missiles actually with the GBIs. And it is very quick to set up 
a scenario where they wouldn't be there for either shot.
    Mr. Sestak. So if I were to walk out of this hearing--I 
think I have only have four seconds--I could walk out saying 
that in the first two years we will now cover Israel, the 
Middle East, troops, southeastern Turkey, from short-range and 
medium-range, which we wouldn't do under the 2017 system of the 
Bush Administration.
    General O'Reilly. Sir, southeastern Europe--not just 
Turkey, but Europe.
    Mr. Sestak. Southeastern Europe. And that we are going to 
basically use a multi-task ship that, with a nanosecond, can go 
from one mission to the other.
    General Cartwright. Yes, sir.
    Mr. Sestak. And that radar is only against missile threats. 
You could still move around and use its other systems for 
antisubmarine at the same time, even if you are doing ballistic 
missile threats. Correct?
    General Cartwright. That is correct.
    Mr. Sestak. And then move them anywhere you want in the 
world.
    General Cartwright. That is correct.
    Mr. Sestak. And then the key is the second radar site for 
the discrimination.
    Thank you.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    In looking at the maps for the coverage of Phase One in 
2011, Phase Two in 2015, the coverage that would provide for 
Europe, do Phases One and Two provide full coverage to those 
European countries within range of Iran's short- and medium-
range missiles?
    General O'Reilly. For the short- and medium-range during 
this period of time, yes, the coverage would be there.
    Mr. Coffman. You wouldn't need Aegis in the Black Sea to be 
able to provide that coverage?
    General O'Reilly. Not for the NATO countries that we are 
referring to.
    Mr. Coffman. Uh-huh. Given Moscow's nonsensical concern 
that ground-based interceptors in Poland could be fitted with 
nuclear warheads and pose a threat to Russia, what is to say 
they are not going to be concerned with having a greater 
inventory of mobile SM-3 interceptors capable of intercepting 
all ranges of ballistic missiles deployed throughout Europe? 
Will this new approach be equally problematic for Russia?
    General O'Reilly. Sir, if you are referring to the ability 
to--their concern that these GBIs could be used offensively?
    Mr. Coffman. No. Let me go in another direction.
    Tell me if--the Administration's focus has now shifted over 
to address the intermediate-range concerns, saying that they 
are the first capability that Iran will have. So now you have 
shifted in that direction.
    Now, tell me what the environment will look like when you 
go to long-range--I mean, when they do develop long-range 
ballistic missiles, which we have intelligence that they are 
developing, then what, then, are you proposing to address that 
threat scenario?
    General Cartwright. I think, you know, kind of start from a 
technical side, is the SM-3 IIB, in particular, because it will 
have a capability of getting them before they get out of the 
ascent phase. So that is the first shot.
    The second shot, then, is to be able to use this missile, 
the ground-based interceptors that are in the United States, to 
catch them in the exo-atmospheric portion of the architecture.
    If we were very convinced and very threatened in the United 
States--in other words, they fielded a large number of them 
very quickly--we could add the SM-3 or the Patriot or the THAAD 
to defending the United States in areas that we felt were 
appropriate for that, based on the threat.
    So we would be able to cover it in all three regimes of 
flight.
    Secretary Flournoy. Let me just add, though, I would not 
characterize this as a shift of focus. We are pursuing what we 
think will be a more effective enhancement of the homeland 
defense piece, both with the radar in Phase One and the ascent 
phase capability in Phase Four. But, in the meantime, to deal 
with threats that are already in existence, we are adding a 
more responsive set of systems that can deal with the shorter- 
and medium-range threats that are there now.
    Mr. Coffman. What will the Administration be asking for in 
subsequent budgets, in terms of missile defense? What can the 
Congress expect to see?
    Secretary Flournoy. I defer to General O'Reilly. He is the 
keeper of our program.
    General O'Reilly. Well, sir, we are in development, as I 
said, in the preparation for this next budget. But you will see 
investment continue that we started in the fiscal year 2010 
proposal for the sensors and the networks and the SM-3 variants 
and the development of the unmanned aerial vehicles that are 
key to this architecture, continued development in that area. 
At the same time, expanded testing of the land-based SM-3 
options and of the SM-3 IB will begin flight-testing a year 
from now.
    And in the area of developing the SM-3 IIA, we will 
continue that work. We are having a flight test. Our work with 
the Japanese is to have our first flight test in 2014. So there 
will be funding for that program, as well as the other aspects 
of the missile defense capability, including enhancing the 
capability of the GMD system in Alaska and Vandenberg.
    Mr. Coffman. Thank you.
    The Chairman. I thank the gentleman.
    Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you to all of you for being here and for your 
expertise.
    And, of course, I also want to welcome, as all my 
colleagues have, our great friend and colleague, Secretary 
Tauscher. And I know she knows how prideful I feel in her being 
here.
    And it is great to have you all.
    I want to turn for a second, because we are very pleased, I 
think, that we have this interagency approach today. And there 
is a strong diplomatic piece to it, and we understand that. And 
I wonder, then, if, Secretary Tauscher, you could particularly, 
I think, respond, and if others want to join in.
    We know, through your prepared remarks quoting NATO 
Secretary-General Rasmussen, the role that NATO will be 
playing. And I think part of the question is, how is that going 
to be different? What has changed? What do we anticipate in 
their involvement? And, also, what role do we think the NATO 
allies will be playing in a kind of cost-sharing effort to 
ensure the wealthier nations are contributing to the success of 
this strategy? Could you comment on that for us?
    Thank you.
    Secretary Tauscher. Thank you, Congresswoman Davis.
    I want my colleagues from the defense department to talk 
about some of the burden-sharing opportunities, which are 
important. But I think, suffice it to say, there was a lot of 
criticism of the Bush Administration for what was considered to 
be bilaterally negotiating with the Poles and the Czechs. We 
are very grateful that the Poles and the Czechs stepped up.
    That was a criticism, I think, that was overblown. The 
truth of the matter is that we have Article V considerations 
that are very, very important to us. We believe that the 
defense of New York is the same as the defense of Warsaw. An 
attack on Prague is an attack on Peoria.
    So we know now, because of the threat analysis that we have 
and the assessment that we have, that these short- and medium-
range threats that are holding at risk American forward-
deployed troops, American assets and NATO allies are 
significant. Just the test this week of the Iranian short- and 
medium-range missiles show that we have risks right now that we 
have got to put assets against.
    And I think that we have a very robust engagement with our 
NATO allies. So NATO-izing this process not only gives us a 
chance to use indigenous technologies developed by our allies, 
but also burden-sharing, but the kind of centralized command 
and control that is very necessary to protect our assets, to 
work with our allies, and to have, we hope, future cooperation 
with Russia, through the Russia-NATO Council, so that we have a 
very big network system that can protect everybody, including 
our forward-deployed troops, against these threats.
    Perhaps Michele would add.
    Secretary Flournoy. I would just add, I mean, one of the 
real strengths, or appeals, of this new system is that it has a 
broad variety of ways that other countries can participate.
    There are NATO countries that already have the Aegis ships. 
They could choose to upgrade those with ballistic missile 
defense capability and contribute that way. There are countries 
who are interested in acquiring the kind of UAVs that could be 
used as sensor platforms. There are countries that may step up 
and become SM-3 missile sites.
    There are countries that are already contributing to NATO's 
command and control system, the all-BMD system that is being 
designed, which is going to link the, sort of, lower-tier 
defense to the, sort of, middle- and upper-tier defense. And, 
of course, there is opportunity for a co-development of systems 
going forward, as other countries in Asia have already 
participated with us.
    So there are just a lot of different ways that countries 
can chip in, both individually and as part of----
    Mrs. Davis. One of the questions might be whether we, in 
fact, gain greater leverage with this new architecture in 
bringing--certainly, there are many technologies already in 
place and efforts. But I think what would be helpful to know is 
whether--and we may not know that for a while--but whether this 
really does even truly enhance, as you are saying, the 
relationships in a new way. I don't know whether----
    Secretary Flournoy. We got very strong feedback from the 
NAC that they like the fact that this is truly about the 
indivisibility of NATO in terms of a defense for all. I don't 
want to name names because it is premature, but there were a 
number of representatives who came up and said, ``We want to be 
part of this and we want to talk about how.'' So I think that 
was very positive.
    Mrs. Davis. And do we know whether that changes the message 
that this is also sending to our adversaries?
    Secretary Flournoy. Absolutely. I mean, I think General 
Cartwright has spoken before about how this contributes to 
deterrence.
    I don't know if you want to jump in on that point.
    General Cartwright. If you are a single country and 
everybody around you is contributing to a defensive capability, 
it has to affect you. That is point one.
    And then point two is their opportunity to contribute in 
ways that are so different than a U.S.-only system.
    Mrs. Davis. Thank you.
    The Chairman. I thank the gentlelady.
    Mr. Langevin.
    I have Mr. Langevin, Dr. Snyder, Mr. Taylor and, I believe, 
Mr. McKeon, who withheld his questions earlier, should be 
recognized.
    Mr. Langevin. Thank you, Mr. Chairman.
    I would like to welcome the panel here today. And thank you 
all for your very thoughtful, comprehensive testimony and for 
this very flexible and comprehensive plan on missile defense 
that you presented to us today.
    I particularly, like my other colleagues, want to welcome 
back Secretary Tauscher and thank her for her great service on 
this committee for so many years. And I am honored to have 
followed her as the chairman of the Strategic Forces 
Subcommittee and hope to follow in the very high standard that 
you set, Secretary. So, welcome.
    Secretary Tauscher. Thank you.
    Mr. Langevin. We have touched on a number of important 
things already that I had questions about, or concerns, and 
some of them have been already answered, in particular how we 
will interact now with Poland and with Czechoslovakia. And, 
clearly, you laid out that there will be ongoing involvement on 
missile defense with them, so that should allay any fears that 
people have that we are not continuing on in our cooperation 
with missile defense with them.
    We have also talked about cost. And I want to talk a little 
more about capabilities of the system and comparisons. Just to 
recap again, for one GBI, $70 million; for an SM-3, depending 
on which version, anywhere from $10 million to $15 million.
    Could we also talk about, in terms of the site, if it was a 
land-based SM-3 site versus a GBI site, the cost and personnel 
required for either one of those sites? I think that is 
something important to highlight.
    General O'Reilly. Sir, the previous GBI site that was 
proposed, it was a large complex, it was a missile field, had 
missile assembly buildings and so forth, had a large contractor 
support team that was there. So the total number of the site 
personnel was around 450 people at any one time manning that 
site.
    In contrast, the land-based SM-3 site is much smaller. As 
far as site prep goes, it is pads of concrete, primarily and 
fences, security, and so forth. Its population--and this is 
very early--but our estimate is it is somewhere around 70 
people. So it is a significantly smaller footprint even though 
you could have upwards of 80 interceptors at the same site 
where we previously had 10.
    To build one of those missile fields, for example, a GBI is 
a five-year construction period. This, to prep the site, would 
be less than a year.
    Mr. Langevin. And let's talk about, were there to be an 
attack--obviously we are primarily concerned about Iran--but if 
there were to be an attack, they are obviously not going to 
launch one, two, or three missiles. You talk again about the 
number of short- and intermediate-range missiles and how 
quickly the system could be overwhelmed if we only had 10 GBIs. 
You laid out how we would launch two GBIs for each missile that 
is launched, so how quickly it would be overwhelmed and what 
flexibility the SM-3 system would offer to meet the threat.
    General Cartwright. Well, the raid size issue is something 
that we worry about, particularly from the standpoint that it 
would overwhelm the sensors and then overwhelm the weapons very 
quickly and then leave them vulnerable, or leave that area 
vulnerable.
    The new system, both in the affordability side of the 
equation but more from an operational standpoint and the 
ability to address large raids, as we have watched the Prophet 
series exercises which are ongoing right now in Israel--I am 
sorry, in Iran--you generally are seeing half a dozen or so, 
similar to what we see on the 4th of July from North Korea, 
where they will launch half a dozen to a dozen missiles. That 
could quickly overwhelm the GBI system.
    And what we will be able to do with the SM-3 in the early 
stages is to address those weapons with SM-3s in Europe. When 
we move to the 2020 system, we will not only be able to address 
them in the terminal phase and in the exo-atmospheric, trans-
atmospheric areas, but we will start to go after them in the 
ascent phase, very early in the game, which allows the problem 
to be simplified substantially and allows us to get at those 
systems very early in the flight, which means we don't waste 
second and third missiles going after them.
    Mr. Langevin. General O'Reilly, could I ask you, the 
testing--where and how you test the SM-3 missile as its 
development continues. And do you have the range facilities and 
authorities you need to conduct the planned testing? And can 
you talk about how this would protect Hawaii, if that is a test 
site?
    General O'Reilly. Well, sir, Hawaii is where we do most of 
our testing in the Pacific. And that would be the likely 
location for this, because we want to integrate that testing 
with THAAD and Aegis on ships and our GMD system. So all of 
those systems come together in the central Pacific, so the 
Pacific Missile Range would be an ideal site for this testing.
    And, as you said, it has a redundant--or it has an 
additional attribute, that if you are there and you have this 
capability you are testing, it would be there for other uses 
for defense also, as we have done in the past with our systems 
that we test there in the Pacific.
    The Chairman. I thank the gentleman.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you all for being here. As I have listened to this 
this morning and read through the testimonies earlier, it 
brings home, once again, that you all are doing a great job in 
working through this very difficult challenge.
    But the reality for Iran is they are not safer by pursuing 
the nuclear program, they are not safer by pursuing their 
missile program. You know, I am one of those people that think 
there is a lot that, eventually, Americans and Iranians will do 
together as people that will be very, very productive. But 
somehow they are off on this tangent that it will somehow help 
their national aspirations for their people by pursuing these 
programs. And I think it is very clear from the work you all 
are doing that it will not help them. And I think that is the 
unfortunate side of what they are doing. But I hope at some 
point their leadership will recognize they are not safer by 
pursuing these programs.
    General O'Reilly, in his written and oral statement, used 
the phrase that what you are all about is that this will 
enhance U.S. homeland defense. And there are some people on the 
committee today that have said they are concerned it will 
weaken it. I don't get that. I just don't see where what you 
are saying here in any way puts us at risk of weakening U.S. 
homeland defense.
    Somehow we think that when we set up a program, even though 
it is a--all these programs are multiyear, that we can never 
learn from a changing world or changing technology, I mean, I 
just don't get it, why we would think that somehow you all are 
going to make changes that you are going to sit there and 
testify, after years and years of service to your country, that 
this enhances U.S. homeland defense when, in fact, it weakens 
it. I don't get it. I mean, I don't get it. I think a lot of 
this is just technological change.
    I wanted to ask, Secretary Tauscher, I think I will address 
you, put these questions to you, with regard to the discussion 
that has been going on about Poland and Russia. And I 
understand what you all have testified to, that you have 
reached out to folks, that there was some misinformation, and 
you feel like it is moving in the right direction.
    But there are clearly some voices being heard from Poland 
that think they were mistreated. And so, would you explain to 
me why they might think that?
    Secretary Tauscher. Well, Congressman Snyder, I can't speak 
for them, but I will tell you that every effort was made to 
pre-consult and to consult, but there was a lot of leaking 
going on. And there was a sense that, once the President made 
the decision, that we had to get out there and do it. And, 
literally, within hours of the President making the decision, 
we were on planes going to see them.
    We are enormously grateful that the Polish Government and 
the Czech Government worked with the previous administration on 
what was called the program of record. But things have changed. 
They have changed significantly. The threat has changed. We 
have a big commitment to our NATO allies and forward-deployed 
troops. It is clear that the current threat is from short- and 
medium-range. The United States is currently protecting----
    Dr. Snyder. And I understand all that. But I want us to 
be--I mean, when some of us met yesterday, and we have had 
discussions through the last several weeks with Poles, and 
there are, at a minimum, some misunderstandings that are 
persisting.
    And so I want to understand better why they may have the 
view--which you all don't agree with, and you are going to try 
to rectify and, I think, will get straightened out--I think the 
relationship between Poland and the United States is and will 
be very strong for decades to come--but why they might be 
thinking that this was not helpful to their foreign policy.
    Secretary Tauscher. Well, I will tell you that, under the 
previous administration, the Polish Government and the Czech 
Government stepped up smartly to support the United States in 
our ambitions to put both the 10 GBIs in Poland and the radar 
site in the Czech Republic against public opinion. Public 
opinion in both countries was significantly against it. So both 
governments used a lot of political capital to support the 
ally, the United States, and have had a lot of dissension 
politically domestically.
    Dr. Snyder. So they took their political hits domestically. 
They also took some hits from Russia, which wasn't very excited 
about these missiles there.
    Secretary Tauscher. That is right.
    Dr. Snyder. So is the basic underlying problem they paid 
the price and now we are backing off? Is that how you perceive 
the----
    Secretary Tauscher. Well, I think what happened was, in 
anticipation of the BMD Review being released, there was a lot 
of domestic U.S. speculation as to what the characterization of 
that would be, and they were wrong. The characterization coming 
out of the United States, picked up by the press in Europe, was 
that we were canceling the program. If you remember, in the 
first 24 hours, there was completely misinformation 
disseminated, and it was affecting the political environment in 
Poland.
    Dr. Snyder. Which gets back to the basic point that this, 
in fact, enhances security both for Europe and the United 
States.
    Secretary Tauscher. Exactly. And I think that is the 
message that everyone has now.
    Dr. Snyder. Thank you.
    The Chairman. I thank the gentleman.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    And, like everyone else, I want to welcome back our former 
colleague. And I, as an American, think we are very lucky to 
have you first as a congresswoman and now serving in this 
capacity.
    Secretary Tauscher. Thank you.
    Mr. Taylor. You know, in the past 20 years, under both 
Democratic and Republican presidents, we have seen the Spanish 
ask us to give up a huge air base at Torrejon. We have seen the 
Philippine Government ask us to give up tens of billions of 
dollars of infrastructure in their country. The Panamanians 
asked us to give up tens of billions of dollars of 
infrastructure in their country. Our fellow Americans in Puerto 
Rico asked us to give up Vieques, and then we made the 
decision, ``Well, there is no reason to have Roosevelt Roads if 
we can't have Vieques.'' And, most recently, the Government of 
Ecuador that, just 10 years ago, begged us to build an airfield 
at Manta is now asking us to give that airfield back to them.
    And in each instance they are our host, and in each 
instance as the guest, when they ask us to leave, as the good 
guys we are as a Nation, we leave. And we leave all those 
things behind.
    So, going to the decision for more mobile units, initially 
going to a sea-based unit, I commend you. Because these nations 
that are now asking us to spend a lot of money in their 
countries are one regime away from asking us to leave. Those 
huge investments on the part of the American people, just like 
we saw in Spain, the Philippines, Panama, Puerto Rico, which 
are fellow Americans, just go to waste.
    Obviously, I come from shipbuilding country. Obviously, I 
support putting as many of these things on ships as you can 
because you don't have to ask someone's permission to use the 
ocean. And if you look at every potential threat out there, it 
is on an ocean.
    And for my colleagues who are rightfully concerned about 
Iran, I would remind you that the Iranians don't have any 
carriers anywhere near our country. The Iranians don't have any 
submarines anywhere near our country. The Iranians don't have 
troops on two countries bordering our country. And I would 
think that the Iranians are very much aware of the three things 
that I just said and that that should be on their thoughts 
every day if they ever think of doing something as foolish as 
sending a missile towards the United States of America or any 
of our troops.
    So having said that, I am just curious how much, if any, 
did those things we gave up in Spain, Panama, the Philippines, 
Puerto Rico, play into the decision not to make huge capital 
investments in somebody else's country where they could ask us 
to leave at any moment?
    General Cartwright. I will start, Congressman.
    For me, diversity is just absolutely essential, because you 
do not know tomorrow where you will be, who your friend will 
be, exactly what the right posture towards a threat will be. 
The mobile aspect of this and then the relocatable aspect of 
this gives us a really powerful blend.
    And we are talking today about Europe, but I am equally 
focused on the Pacific. The North Korean threat, obviously, is 
a part of this dialogue. But there is not a lot of land mass 
out there. And to be in the right place to defend this country 
is going to, probably, have to be from the sea.
    And so, as we look at the entire globe, these mobile 
systems, both in their flexibility to adjust to changes in the 
geopolitical side of the house but also to adjust to changes in 
the threat and where that threat will come from, are absolutely 
an essential element that, for me, can't be compromised.
    We have to have a mobile--yes, a mobile system costs more 
than a fixed-base infrastructure. But that investment is 
generally easily returned in its flexibility.
    Mr. Taylor. Thank you.
    Ms. Tauscher, do you want to comment on that?
    Secretary Tauscher. Well, Mr. Taylor, thank you for those 
warm remarks. But I think that I can only echo what General 
Cartwright has said.
    But I will say that, once again, we are very aware of how 
our allies have stepped up, and we are very aware of our 
Article V commitments to our NATO allies. The program of record 
would not have protected, even in its final stages, all of our 
European allies. And our system begins to protect them now.
    So I think that we shouldn't get into the job of picking 
false choices. This is a very comprehensive, flexible system 
that is adaptive, that deals with the current threat, with 
proven technology now. And I think that that is a 
characteristic that the President understood. I think that we 
hope that we get support from the Congress.
    But, in the end, it gives us the kind of flexibility not 
only to deal with the basing issues but also to the threat, 
which is really, I think, what the American people need to have 
confidence in.
    Mr. Taylor. Thank you.
    The Chairman. Thank you very much.
    Mr. McKeon, the gentleman from California, wrap it up.
    Mr. McKeon. Thank you, Mr. Chairman.
    I think this has been a very, very good hearing. And I 
think there are lots of things we agree on, as Mr. Turner 
pointed out. I think there are lots of things we disagree on, 
as has also been pointed out. But, as Mr. Spratt and Mr. 
Marshall said, I think we have come a long way on the debate.
    I remember when Reagan talked about SDI and how loony-tune 
he was and how crazy he was. It would be very interesting if he 
could come back and hear the debate we just had today and how 
both sides are supporting missile defense.
    We still have differences. Sadly, I think some of them are 
partisan. Sometimes I sit here thinking, could a Republican say 
something, one thing nice about President Clinton, could a 
Democrat say one thing nice about President Bush that they did 
in their eight years, respectively?
    I still have some concerns, and, you know, we will work on 
those, we will address those as we move forward. I do have 
concerns about how we treated Poland and Czechoslovakia in 
this. I know the Poland Ambassador yesterday said that he felt 
they had been knifed in the back. So we haven't completely 
salved that problem yet. I think we still need to work on that, 
and hopefully we will.
    I think people that are our allies should feel good about 
being our allies. And I understand that sometimes you have to 
move in ways that don't take care of all the problems. But I 
hope we can reach out to them and make sure that they fully 
have bought into this and can feel good about it. And I hope 
that we can continue talking about this and move forward.
    I, again, like Mr. Marshall, wish that we had not cut 
missile defense by $1.2 billion in the budget if these new 
programs--as General Cartwright just said, the mobile system is 
going to cost more. Now, there has been a lot of talk about it 
is cheaper, but it is going to cost more. And if there was a 
change made in direction, we should have kept the money in 
there and put it toward that, because we haven't totally 
handled all of the money situation.
    So thank you. Thank you for what you are doing. Thank you 
for your service to America. And we will continue to talk about 
this.
    And thank you, Mr. Chairman.
    The Chairman. Mr. McKeon, thank you very much.
    A special thanks to the panel for your outstanding remarks 
today in answering the questions. I think that this has been 
one of the best hearings that we have had.
    We have one 15-minute vote and two 5-minute votes.
    Mr. Wilson.
    Mr. Wilson. Mr. Chairman, I would like to indicate that I 
will be sending a letter expressing concern about the new plan 
for Guam, Hawaii, Alaska, the Philippines, and Taiwan.
    Thank you.
    The Chairman. With that, we thank you again.
    [Whereupon, at 12:34 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            October 1, 2009

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 1, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T1736.001
    
    [GRAPHIC] [TIFF OMITTED] T1736.002
    
    [GRAPHIC] [TIFF OMITTED] T1736.003
    
    [GRAPHIC] [TIFF OMITTED] T1736.004
    
    [GRAPHIC] [TIFF OMITTED] T1736.005
    
    [GRAPHIC] [TIFF OMITTED] T1736.006
    
    [GRAPHIC] [TIFF OMITTED] T1736.007
    
    [GRAPHIC] [TIFF OMITTED] T1736.008
    
    [GRAPHIC] [TIFF OMITTED] T1736.009
    
    [GRAPHIC] [TIFF OMITTED] T1736.010
    
    [GRAPHIC] [TIFF OMITTED] T1736.011
    
    [GRAPHIC] [TIFF OMITTED] T1736.012
    
    [GRAPHIC] [TIFF OMITTED] T1736.013
    
    [GRAPHIC] [TIFF OMITTED] T1736.014
    
    [GRAPHIC] [TIFF OMITTED] T1736.015
    
    [GRAPHIC] [TIFF OMITTED] T1736.016
    
    [GRAPHIC] [TIFF OMITTED] T1736.017
    
    [GRAPHIC] [TIFF OMITTED] T1736.018
    
    [GRAPHIC] [TIFF OMITTED] T1736.019
    
    [GRAPHIC] [TIFF OMITTED] T1736.020
    
    [GRAPHIC] [TIFF OMITTED] T1736.021
    
    [GRAPHIC] [TIFF OMITTED] T1736.022
    
    [GRAPHIC] [TIFF OMITTED] T1736.023
    
     [GRAPHIC] [TIFF OMITTED] T1736.024
    
    [GRAPHIC] [TIFF OMITTED] T1736.025
    
    [GRAPHIC] [TIFF OMITTED] T1736.026
    
    [GRAPHIC] [TIFF OMITTED] T1736.027
    
    [GRAPHIC] [TIFF OMITTED] T1736.028
    
    [GRAPHIC] [TIFF OMITTED] T1736.029
    
    [GRAPHIC] [TIFF OMITTED] T1736.030
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 1, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. As we discuss the current threat of ballistic missile 
attacks in Eastern Europe and the Middle East or Persian Gulf, how will 
the redeployment of sea-based missile defense systems from the Pacific 
affect the United States' ability to protect its interests in the 
Pacific, such as Guam, and its allies, including the countries of 
Japan, the Philippines, South Korea, and Taiwan? What feedback have you 
received from government officials in these countries since President 
Obama's decision to recommit missile shields from the Pacific?
    Secretary Flournoy. The new European-based ballistic missile 
defense (BMD) program--the Phased, Adaptive Approach (PAA)--in no way 
abandons or degrades our commitments to our important friends and 
allies in East Asia, nor does it compromise the missile defense 
capabilities provided to our military commanders in the Pacific. The 
PAA will leverage missile defense assets that in some cases have yet to 
be permanently assigned to a particular region and, in other cases, 
will be purchased in future budget requests. European-based BMD would 
not rely on assets and capabilities already in place in the Pacific.
    The decision to pursue this new European BMD architecture was 
driven, in part, by early conclusions from the ongoing Ballistic 
Missile Defense Review (BMDR). The BMDR, which will be presented to 
Congress in January 2010, will address the central aspects of our 
ballistic missile defense program, including the methodology for the 
allocation of BMD assets. As we move forward with decisions on where to 
deploy those assets, we will ensure that the Combatant Commanders in 
the Pacific, Europe, the Middle East, and elsewhere are fully involved. 
We will also continue to consult with our Allies.
    Mr. Wilson. Further, the United States has over 325,000 American 
military personnel, not to mention their dependents, stationed in the 
Pacific. I am concerned that the re-allocation of sea-based missile 
defense platforms away from our nation's largest area of responsibility 
jeopardizes their safety. As the President's new missile defense 
architecture was developed, what consideration was given to the safety 
of Americans in the Pacific Theater, including in Guam, Alaska, and 
Hawaii? It would be a severe risk management mistake to sacrifice 
security in the Pacific in order to attempt to realize the potential 
cost savings attributed to a new missile defense architecture, some 
elements of which are not even invented yet.
    Secretary Flournoy. The new European-based missile defense program 
in no way abandons or degrades our commitments to our important Allies 
in East Asia, nor does it compromise the missile defense capabilities 
provided to our commanders in the Pacific. Missile defenses in Europe 
will leverage assets that in some cases have yet to be permanently 
deployed to a particular region or, in other cases, will be purchased 
with future budget requests. European-based missile defense will not 
rely on assets and capabilities already fielded in the Pacific.
    Mr. Wilson. As we discuss the current threat of ballistic missile 
attacks in Eastern Europe and the Middle East or Persian Gulf, how will 
the redeployment of sea-based missile defense systems from the Pacific 
affect the United States' ability to protect its interests in the 
Pacific, such as Guam, and its allies, including the countries of 
Japan, the Philippines, South Korea, and Taiwan? What feedback have you 
received from government officials in these countries since President 
Obama's decision to recommit missile shields from the Pacific?
    General O'Reilly. As head of the Missile Defense Agency, I am 
responsible for technical aspects of the Ballistic Missile Defense 
System including the development, testing, and fielding of the 
architecture's components. I defer to my colleagues in Office of the 
Secretary of Defense and the Department of State who are in a better 
position to respond to questions that have policy or diplomatic 
implications.
    Mr. Wilson. Further, the United States has over 325,000 American 
military personnel, not to mention their dependents, stationed in the 
Pacific. I am concerned that the re-allocation of sea-based missile 
defense platforms away from our nation's largest area of responsibility 
jeopardizes their safety. As the President's new missile defense 
architecture was developed, what consideration was given to the safety 
of Americans in the Pacific Theater, including in Guam, Alaska, and 
Hawaii? It would be a severe risk management mistake to sacrifice 
security in the Pacific in order to attempt to realize the potential 
cost savings attributed to a new missile defense architecture, some 
elements of which are not even invented yet.
    General O'Reilly. As head of the Missile Defense Agency, I am 
responsible for technical aspects of the Ballistic Missile Defense 
System including the development, testing, and fielding of the 
architecture's components. I defer to my colleagues in Office of the 
Secretary of Defense and the Department of State who are in a better 
position to respond to questions that have policy or diplomatic 
implications.
    Mr. Wilson. As we discuss the current threat of ballistic missile 
attacks in Eastern Europe and the Middle East or Persian Gulf, how will 
the redeployment of sea-based missile defense systems from the Pacific 
affect the United States' ability to protect its interests in the 
Pacific, such as Guam, and its allies, including the countries of 
Japan, the Philippines, South Korea, and Taiwan? What feedback have you 
received from government officials in these countries since President 
Obama's decision to recommit missile shields from the Pacific?
    General Cartwright. The new European-based BMD program--the Phased, 
Adaptive Approach (PAA)--in no way abandons or degrades our commitments 
to our important Allies in East Asia, nor does it compromise the 
missile defense capabilities provided to our military commanders in the 
Pacific. At this point, no redeployment decisions have been made, and 
no orders have been given to redeploy Pacific-based ships based on the 
Presidential decisions on European Missile Defense.
    The decision to pursue this new European BMD architecture was 
driven in part by early conclusions from the ongoing Ballistic Missile 
Defense Review (BMDR). The BMDR, which will be presented to Congress in 
January 2010, will address the central aspects of our ballistic missile 
defense program, including the methodology for the allocation of BMD 
assets. As we move forward with decisions on where to deploy those 
assets, we will ensure that the Combatant Commanders in the Pacific, 
Europe, Middle East, and elsewhere are fully involved.
    Mr. Wilson. Further, the United States has over 325,000 American 
military personnel, not to mention their dependents, stationed in the 
Pacific. I am concerned that the re-allocation of sea-based missile 
defense platforms away from our nation's largest area of responsibility 
jeopardizes their safety. As the President's new missile defense 
architecture was developed, what consideration was given to the safety 
of Americans in the Pacific Theater, including in Guam, Alaska, and 
Hawaii? It would be a severe risk management mistake to sacrifice 
security in the Pacific in order to attempt to realize the potential 
cost savings attributed to a new missile defense architecture, some 
elements of which are not even invented yet.
    General Cartwright. At this point, no redeployment decisions have 
been made, and no orders have been given to redeploy Pacific-based 
ships based on the Presidential decisions on European Missile Defense. 
Future decisions regarding the deployment of Missile Defense assets 
will be made in full consideration of all U.S. responsibilities for the 
defense of citizens, forces, friends and allies, and with input from 
the Combatant Commanders in the Pacific, Europe, the Middle East, and 
elsewhere.
    Mr. Wilson. As we discuss the current threat of ballistic missile 
attacks in Eastern Europe and the Middle East or Persian Gulf, how will 
the redeployment of sea-based missile defense systems from the Pacific 
affect the United States' ability to protect its interests in the 
Pacific, such as Guam, and its allies, including the countries of 
Japan, the Philippines, South Korea, and Taiwan? What feedback have you 
received from government officials in these countries since President 
Obama's decision to recommit missile shields from the Pacific?
    Secretary Tauscher. Our plans will in no way reduce our missile 
defense capabilities in the Pacific. The Phased Adaptive Approach (PAA) 
does not take sea-based Ballistic Missile Defense (BMD) capabilities 
deployed in the Asia/Pacific region and re-deploy them to Europe. Under 
the President's plan, we will substantially increase the deployment of 
proven missile defense capabilities to counter the most likely missile 
threats. The President's FY 2010 budget requests increased funding 
beyond the Bush Administration's plan for key missile defense assets to 
include making six additional Aegis ships BMD-capable.
    We have received positive feedback from government officials in the 
Pacific region about the President's plan. We believe that the proposed 
``Phased, Adaptive Approach'' architecture has applicability to other 
regions of the world. The United States will discuss with our allies 
and friends worldwide about how we can further enhance regional 
security and stability by countering the threat of ballistic missiles 
with effective, timely, and responsive defensive capabilities.
    Mr. Wilson. Further, the United States has over 325,000 American 
military personnel, not to mention their dependents, stationed in the 
Pacific. I am concerned that the re-allocation of sea-based missile 
defense platforms away from our nation's largest area of responsibility 
jeopardizes their safety. As the President's new missile defense 
architecture was developed, what consideration was given to the safety 
of Americans in the Pacific Theater, including in Guam, Alaska, and 
Hawaii? It would be a severe risk management mistake to sacrifice 
security in the Pacific in order to attempt to realize the potential 
cost savings attributed to a new missile defense architecture, some 
elements of which are not even invented yet.
    Secretary Tauscher. I understand, and fully share, your concern for 
the protection of U.S. citizens who live in the Pacific region and our 
military forces deployed there. Our plans will in no way reduce or 
degrade our missile defense capabilities in the Asia/Pacific region. We 
will maintain our Ground-Based Interceptors in Alaska and California to 
protect the continental United States and Alaska and Hawaii against 
long-range missile attacks from Iran or North Korea. The Phased 
Adaptive Approach (PAA) does not take sea-based Ballistic Missile 
Defense (BMD) capabilities deployed in the Asia/Pacific region and re-
deploy them to Europe. Under the President's plan, we will 
substantially increase the deployment of proven missile defense 
capabilities to counter the most likely missile threats. The 
President's FY 2010 budget requests increased funding for key missile 
defense assets to include making six additional Aegis ships BMD-
capable.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. In the analysis supporting the decision on a new four-
phased approach:

    a.  What were the specific locations (or are the planned locations) 
for missile defense assets in Europe, including ship stations and land-
basing sites, and interceptor inventories required to provide coverage 
for each of the four phases?

    b.  What level of coverage (e.g., percentage) is provided for 
Europe in each of the four phases?

    Secretary Flournoy. The new European-based ballistic missile 
defense (BMD) program--the Phased, Adaptive Approach (PAA)--will be 
fielded over four phases between now and 2020.
    Phase I, to be deployed in 2011, will use existing missile defense 
systems to defend against short- and medium-range ballistic missiles. 
Phase I will focus on the protection of Southern Europe by utilizing 
sea-based Aegis missile-defense-capable ships and interceptors (the SM-
3 Block IA). The first phase will also include a forward-based radar 
that will augment homeland defense capabilities already in place in 
Alaska and California.
    Phase II, to be deployed in the 2015 timeframe, will enhance our 
capabilities by fielding a more advanced interceptor (the SM-3 Block 
IB) and additional sensors. In addition to sea-based locations, Phase 
II will include a land-based site in Southern Europe.
    Phase III, to be deployed in the 2018 timeframe, will improve 
coverage against medium- and intermediate-range threats. Phase III will 
rely on an upgraded Standard Missile-3 (the SM-3 Block IIA), which is 
already under development, at sea- and land-based sites, and will 
extend coverage to all of Europe.
    Phase IV, to be deployed in the 2020 timeframe, will provide a 
capability against a potential intercontinental ballistic missile 
threat to the United States. This phase will leverage yet another 
upgrade to the Standard Missile-3, the Block IIB. All four phases will 
include upgrades to the missile defense Command and Control system.
    Although specific interceptor inventories and locations for the 
sea- and land-based sites have yet to be determined, the Administration 
is working these matters as part of several internal processes, 
including the Ballistic Missile Defense Review, studies on the global 
allocation of ballistic missile defense assets, and formulation of the 
Administration's budget request for fiscal year 2011. Although it is 
premature to discuss the specific force structure of missile defense 
capabilities around the world, it is important to understand that the 
PAA will field a significantly larger number of interceptors and 
sensors in Europe by leveraging proven, mobile, and more cost-effective 
platforms like AN/TPY-2 radars, airborne infrared sensors, and Standard 
Missile (SM)-3s.
    Mr. Turner. In the analysis supporting the decision on a new four-
phased approach, were any cost estimates on the new approach conducted? 
If so, what are the estimated costs of the new four-phased approach?
    Secretary Flournoy. Several factors were taken into consideration 
when revising the approach to European-based ballistic missile defense, 
including the cost of the system in relation to the capabilities it 
will provide. The bottom line is that given the capabilities required 
to be responsive to the threat that we face today, the revised approach 
utilizes mature, proven sea-based and land-based missile defense 
capabilities that are more cost-effective than the components of the 
previous plan.
    As General Cartwright and General O'Reilly stated in testimony 
before the Senate Armed Services Committee on September 24th and the 
House Armed Services Committee on October 1st, the Standard Missile-3 
(SM-3), at around $10 million apiece, is much cheaper than the Ground-
Based Interceptor, which costs approximately $70 million per 
interceptor. The SM-3 also provides the flexibility to deploy the 
system on sea, land, or both. Inherent in this flexibility is the 
ability to manage the costs associated with maintaining a deployed 
system more effectively.
    Mr. Turner. Given the increased reliance on Aegis ships in the 
European theater, what additional requirements are expected to be 
placed on the U.S. Navy and what impact would this increased reliance 
have on the Navy's ability to meet its worldwide missions and needs?
    Secretary Flournoy. The new European missile defense program in no 
way abandons or degrades our commitments to other important friends and 
allies around the world. In particular, the revised approach in Europe 
does not compromise the missile defense capabilities provided to our 
military commanders in the Pacific, where Aegis ships and Standard 
Missile-3s are an integral part of our missile defense architecture.
    As the Department works through the global allocation of missile 
defense assets to meet the warfighter's needs, the Military 
Departments, including the Navy, and the Combatant Commanders 
responsible for individual regions around the world are all fully 
involved in the planning for employing these assets. We are also 
working closely with the Military Departments--in particular the Navy--
to ensure that their mission requirements are fully funded.
    Mr. Turner. Secretary Flournoy and General Cartwright, you both 
indicated that development and testing of the two-stage Ground-Based 
Interceptor (GBI) that was planned for Poland will continue. For how 
long (or until what specific milestones) does the Department plan to 
continue development and testing of the two-stage GBI? Will it be a 
hedge should the SM-3 Block IIA or IIB interceptors run into problems 
or delays, and if so, will there be a down-select in the future between 
the two-stage GBI and SM-3 Block IIA or IIB interceptors based on the 
progress made on each?
    Secretary Flournoy. Development and testing of the 2-stage Ground 
Based Interceptor (GBI) will continue in order to provide a hedge 
against long-range threats that could potentially emerge in the future. 
However, we believe, as does the Joint Staff and the Missile Defense 
Agency (MDA), that the Standard Missile-3s (SM-3) currently under 
development, as well as the SM-3 Block IIB that will be developed as 
part of the European-based missile defense system, will provide a 
sufficient capability against all ranges of ballistic missile threats.
    Although MDA can better address the specific development and 
testing schedules for the 2-stage GBI, I will note that there is 
currently no plan for a ``down-select'' between it and the SM-3 Block 
IIA or IIB, primarily because there is no plan at this time to enter 
into production of the GBIs. Currently, all planned activities for the 
2-stage GBI are developmental in nature.
    Mr. Turner. NATO's missile defense architecture efforts to-date 
assumed that the previous approach would be ``linked'' with other NATO 
missile defense efforts. What is the schedule and plan for revising 
NATO's missile defense architecture to incorporate this new approach 
and, with the U.S. now providing ``more comprehensive'' coverage of 
Europe, what role and contribution will our European allies have? Does 
the Administration intend to seek NATO support for its new approach 
similar to that expressed in the April 2008 Bucharest Summit 
declaration?
    Secretary Flournoy. Work is underway at NATO to examine the 
possible expansion of the scope of NATO's Active Layered Theater 
Ballistic Missile Defense (ALTBMD) system beyond the defense of 
deployed forces, to include the defense of Allies' territory and 
populations. The U.S. plan for gaining NATO support includes asking 
Allies at the December Meeting of Foreign Ministers to affirm that 
missile defense for NATO territories and populations is an appropriate 
and viable mission for the Alliance and, in the same spirit as the 
Bucharest Summit declaration, that the new U.S. Phased Adaptive 
Approach (PAA) is a valuable contribution to that mission. The role and 
contribution of European Allies would be to expand ALTBMD's common-
funded C2 backbone to include coverage of NATO territory and 
populations into which U.S. and other Allied national contributions 
would be connected. An Alliance decision on the expansion of ALTBMD 
could come at the fall 2010 NATO Summit in Lisbon. The United States 
will encourage Allied contribution of national systems already acquired 
or that may be acquired in the future, such as various types of 
interceptors, sensors, and sites for the deployment of missile defense 
assets.
    Mr. Turner. In the analysis supporting the decision on a new four-
phased approach:

    a.  What were the specific locations (or are the planned locations) 
for missile defense assets in Europe, including ship stations and land-
basing sites, and interceptor inventories required to provide coverage 
for each of the four phases?

    b.  What level of coverage (e.g., percentage) is provided for 
Europe in each of the four phases?

    General O'Reilly. With the exception of Poland, which has recently 
agreed to begin negotiations over hosting a land-based site during 
Phase 3 of the European Phased Adaptive Approach (EPAA), determinations 
for specific locations for European missile defense components are 
pending conclusion of consultations with potential host nations and 
NATO. It would be premature to announce EPAA locations prior to the 
completion of these discussions. Similarly, specific interceptor 
inventories necessary to provide missile defense capabilities in each 
of the four phases are subject to internal Defense Department 
deliberations which will closely consider operational, programmatic and 
budgetary requirements for the EPAA.
    Assuming continued growth in Iranian ballistic missile 
capabilities, the EPAA will unfold in the following stages over the 
coming years:

    <bullet>  Phase 1--2011 timeframe; existing/maturing systems v. 
SRBM/MRBM threat

        <all>  Use ship-based SM-3 Block IA interceptors operating in 
        the Mediterranean Sea to provide missile defense coverage for 
        Southern Europe.

        <all>  Deploy an AN/TPY-2 sensor in the region to detect, 
        identify and track incoming threats.

    <bullet>  Phase 2--2015 timeframe; enhanced missile defense systems 
v. SRBM/MRBM threat

        <all>  Use the more advanced SM-3 Block IB interceptor, 
        deployed in the Mediterranean Sea and on a land-based site in 
        Southern Europe, to enhance coverage of Southern Europe.

        <all>  Begin deploying a distributed network of sea-, land-, 
        and air-based sensors to augment the AN/TPY-2 or the Airborne 
        Early Infrared Sensor.

    <bullet>  Phase 3--2018 timeframe; improved area coverage v. MRBM/
IRBM threat

        <all>  Use SM-3 Block IIA interceptors, deployed on sea and on 
        two land-based sites (this phase adds a second site, which 
        Poland has agreed to host), to provide coverage for all of 
        Europe.

        <all>  Continue to deploy forward based sensor(s).

    <bullet>  Phase 4--2020 timeframe; capability v. potential ICBM 
threat

    If the ICBM threat evolves:

        <all>  Use SM-3 Block IIB interceptors, deployed on two land-
        based sites, to augment the defense of the U.S. against a 
        potential ICBM threat and protect all of Europe.

        <all>  Sea-based SM-3 Block IIA would provide surge capacity

    Mr. Turner. In the analysis supporting the decision on a new four-
phased approach, were any cost estimates on the new approach conducted? 
If so, what are the estimated costs of the new four-phased approach?
    General O'Reilly. MDA is currently building the FY11-15 Future Year 
Defense Plan (FYDP) and out-year funding profiles to reflect the new 
architecture. These will be available with the release of PB11. The 
below chart reflects MDA's proposed plan for FY09 and FY10 RDT&E 
European Component funding.
    Section 235 of the FY 2010 National Defense Authorization act 
authorizes MDA to use RDT&E funds for the President's new Phased 
Adaptive Approach that were authorized and appropriated in FY09 and 
requested in FY10 for the former European Missile Defense program of 
record, following the submission of a report to Congress from the 
Secretary of Defense certifying certain conditions.


----------------------------------------------------------------------------------------------------------------
                                    FY09 RDT&E Unobligated Funds                                          $M
----------------------------------------------------------------------------------------------------------------
European Interceptor Site                                                                                   173
----------------------------------------------------------------------------------------------------------------
European Midcourse Radar                                                                                     64
----------------------------------------------------------------------------------------------------------------
European Communication Support                                                                               22
----------------------------------------------------------------------------------------------------------------
FY10 RDT&E Budget Request
----------------------------------------------------------------------------------------------------------------
European Component                                                                                           51
----------------------------------------------------------------------------------------------------------------
FY09 Unobligated and FY10 Request Total                                                                     309
----------------------------------------------------------------------------------------------------------------



----------------------------------------------------------------------------------------------------------------
                                   Current FY10 RDT&E Requirements                                        $M
----------------------------------------------------------------------------------------------------------------
Aegis Ashore Development and Test                                                                           244
----------------------------------------------------------------------------------------------------------------
Systems Engineering                                                                                          26
----------------------------------------------------------------------------------------------------------------
Total Current FY10 RDT&E Required                                                                           270
----------------------------------------------------------------------------------------------------------------


    Mr. Turner. Given the increased reliance on Aegis ships in the 
European theater, what additional requirements are expected to be 
placed on the U.S. Navy and what impact would this increased reliance 
have on the Navy's ability to meet its worldwide missions and needs?
    General O'Reilly. As head of the Missile Defense Agency, I am 
responsible for technical aspects of the new architecture including the 
development, testing, and fielding of the architecture's components. I 
defer to my colleagues in the Department of the Navy who are 
responsible for answering questions that concern the Navy's ability to 
meet its missions.
    Mr. Turner. NATO's missile defense architecture efforts to-date 
assumed that the previous approach would be ``linked'' with other NATO 
missile defense efforts. What is the schedule and plan for revising 
NATO's missile defense architecture to incorporate this new approach 
and, with the U.S. now providing ``more comprehensive'' coverage of 
Europe, what role and contribution will our European allies have? Does 
the Administration intend to seek NATO support for its new approach 
similar to that expressed in the April 2008 Bucharest Summit 
declaration?
    General O'Reilly. As head of the Missile Defense Agency, I am 
responsible for technical aspects of the Ballistic Missile Defense 
System including the development, testing, and fielding of the 
architecture's components. I defer to my colleagues in Office of the 
Secretary of Defense and the Department of State who are in a better 
position to respond to questions that have policy or diplomatic 
implications.
    Mr. Turner. In the analysis supporting the decision on a new four-
phased approach:

    a.  What were the specific locations (or are the planned locations) 
for missile defense assets in Europe, including ship stations and land-
basing sites, and interceptor inventories required to provide coverage 
for each of the four phases?

    b.  What level of coverage (e.g., percentage) is provided for 
Europe in each of the four phases?

    General Cartwright. a. Specific asset locations were not determined 
during the development of the four-phased approach. The flexibility 
inherent in the approach allows for a range of options regarding asset 
placement and ship stations. Specific shore locations will be 
determined during bilateral and NATO negotiations. Similarly, 
interceptor inventories were not specified, as these can be adjusted to 
provide the desired capacity as the threat evolves.
    b. Coverage areas vary based on threat missile type and launch 
site. However, NATO strictures direct 100% protection of all member 
nations from anticipated threats and the four-phased approach to 
missile defense in Europe is designed with that goal in mind.
    Phase I, to be deployed in 2011, will use existing missile defense 
systems to defend against the assessed threat from short- and medium-
range ballistic missiles. Phase I will focus on the protection of 
Southern Europe by utilizing sea-based Aegis missile-defense-capable 
ships and interceptors (the SM-3 Block IA) and a forward-based radar 
that will augment homeland defense capabilities already fielded in 
Alaska and California.
    Phase II, to be deployed in the 2015 timeframe, will field a more 
advanced interceptor (the SM-3 Block IB) and additional sensors. In 
addition to sea-based locations, Phase II will include a land-based 
site in Southeast Europe.
    Phase III, to be deployed in the 2018 timeframe, will improve 
coverage against medium- and intermediate-range threats with a second 
land-based site and an upgraded Standard Missile-3 (the SM-3 Block 
IIA), and will extend coverage to all of Europe.
    Phase IV, to be deployed in the 2020 timeframe, will provide a 
capability against a potential intercontinental ballistic missile 
threat to the United States. This phase will leverage yet another 
upgrade to the Standard Missile-3, the Block IIB.
    Mr. Turner. In the analysis supporting the decision on a new four-
phased approach, were any cost estimates on the new approach conducted? 
If so, what are the estimated costs of the new four-phased approach?
    General Cartwright. The initial stages of the four-phased approach 
were designed to be met within current FYDP allocations for MDA and the 
Services. In coordination with the Joint Staff, Military Services, 
Missile Defense Agency, and other missile defense stakeholders, the 
Department of Defense is currently building next year's budget request. 
The fiscal year 2011 budget request that will be released to Congress 
in February will include estimated funding profiles through fiscal year 
2015 to reflect the new European missile defense architecture. The 
below chart reflects MDA's proposed plan for FY09 and FY10 RDT&E 
European Component funding.
    Section 235 of the FY 2010 National Defense Authorization act 
authorizes MDA to use RDT&E funds for the President's new Phased 
Adaptive Approach that were authorized and appropriated in FY09 and 
requested in FY10 for the former European Missile Defense program of 
record, following the submission of a report to Congress from the 
Secretary of Defense certifying certain conditions.


----------------------------------------------------------------------------------------------------------------
                                    FY09 RDT&E Unobligated Funds                                          $M
----------------------------------------------------------------------------------------------------------------
European Interceptor Site                                                                                   173
----------------------------------------------------------------------------------------------------------------
European Midcourse Radar                                                                                     64
----------------------------------------------------------------------------------------------------------------
European Communication Support                                                                               22
----------------------------------------------------------------------------------------------------------------
FY10 RDT&E Budget Request
----------------------------------------------------------------------------------------------------------------
European Component                                                                                           51
----------------------------------------------------------------------------------------------------------------
FY09 Unobligated and FY10 Request Total                                                                     309
----------------------------------------------------------------------------------------------------------------



----------------------------------------------------------------------------------------------------------------
                                   Current FY10 RDT&E Requirements                                        $M
----------------------------------------------------------------------------------------------------------------
Aegis Ashore Development and Test                                                                           244
----------------------------------------------------------------------------------------------------------------
Systems Engineering                                                                                          26
----------------------------------------------------------------------------------------------------------------
Total Current FY10 RDT&E Required                                                                           270
----------------------------------------------------------------------------------------------------------------


    While we are still working through the total estimated costs for 
the revised European-based missile defense system, we will begin buying 
many of the components in the Administration's budget request for 
fiscal year 2011.
    Mr. Turner. Given the increased reliance on Aegis ships in the 
European theater, what additional requirements are expected to be 
placed on the U.S. Navy and what impact would this increased reliance 
have on the Navy's ability to meet its worldwide missions and needs?
    General Cartwright. The new European missile defense program in no 
way abandons or degrades our commitments to other important Allies 
around the world. In particular, the revised approach in Europe does 
not compromise the missile defense capabilities provided to our 
military commanders in the Pacific, where Aegis ships and Standard 
Missile-3s are an integral part of our missile defense architecture.
    As the Department works through the global allocation of missile 
defense assets to meet the Warfighter's needs, the Military Services, 
including the Navy, and the Combatant Commanders responsible for 
individual regions around the world are all fully involved in the 
planning for employing these assets. We are also working closely with 
the Services--in particular the Navy--to ensure that their mission 
requirements are fully funded.
    Mr. Turner. Secretary Flournoy and General Cartwright, you both 
indicated that development and testing of the two-stage Ground-Based 
Interceptor (GBI) that was planned for Poland will continue. For how 
long (or until what specific milestones) does the Department plan to 
continue development and testing of the two-stage GBI? Will it be a 
hedge should the SM-3 Block IIA or IIB interceptors run into problems 
or delays, and if so, will there be a down-select in the future between 
the two-stage GBI and SM-3 Block IIA or IIB interceptors based on the 
progress made on each?
    General Cartwright. MDA intends to continue to develop and test the 
two-stage GBI. Future decisions on the program will be informed by the 
results of those tests. The SM-3 program is a separate effort from 2-
stage GBI. There are currently no plans to make adjustments to the SM-3 
development program based on the results of 2-stage GBI testing or 
development, primarily because there is no plan to enter into 
production of 2-stage GBI's.
    Mr. Turner. NATO's missile defense architecture efforts to-date 
assumed that the previous approach would be ``linked'' with other NATO 
missile defense efforts. What is the schedule and plan for revising 
NATO's missile defense architecture to incorporate this new approach 
and, with the U.S. now providing ``more comprehensive'' coverage of 
Europe, what role and contribution will our European allies have? Does 
the Administration intend to seek NATO support for its new approach 
similar to that expressed in the April 2008 Bucharest Summit 
declaration?
    General Cartwright. The United States will provide Phased Adaptive 
Approach (PAA) capabilities over time and will seek a NATO decision to 
provide a C2 backbone through expansion of the Active Layered Theater 
Ballistic Missile Defense (ALTBMD) program to link Allies' missile 
defense assets. If NATO adopts the mission of missile defense of 
Allies' territory and populations, the PAA would be the U.S. 
contribution to that effort. Allies will have opportunities to 
contribute national systems already acquired, or that may be acquired 
in the future, such as Aegis sea-based systems, PATRIOT, MEADs, THAADs 
additional upper-tier interceptors, sensors, sites for the deployment 
of missile defense assets, and support or defense functions for PAA 
assets. The PAA is consistent with the Strasbourg-Kehl tasking to 
address threats in a prioritized manner and aligns to 2008 and 2009 
NATO summit declarations, and we therefore anticipate support for the 
PAA in NATO communique language from the upcoming NATO Foreign 
Ministerial in December 2009.
    Mr. Turner. In the analysis supporting the decision on a new four-
phased approach:

    a.  What were the specific locations (or are the planned locations) 
for missile defense assets in Europe, including ship stations and land-
basing sites, and interceptor inventories required to provide coverage 
for each of the four phases?

    b.  What level of coverage (e.g., percentage) is provided for 
Europe in each of the four phases?

    Secretary Tauscher. The Phased Adaptive Approach (PAA) is 
responsive to the existing threat and will incorporate relevant 
technologies quickly and cost-effectively to respond to evolving 
threats. Upon completion of Phases One and Two, the PAA will be able to 
defend NATO members threatened by short- and medium-range ballistic 
missiles. Phase Three will counter the threat from intermediate-range 
ballistic missiles and enhance protection against short- and medium- 
range ballistic missiles. Phase Four will add coverage against the 
potential future intercontinental ballistic missile threat to the 
United States.
    Details regarding specific locations of Ballistic Missile Defense 
assets, the required inventory of interceptors, and the level of 
defensive coverage provided to Europe would need to be provided by the 
Department of Defense in a closed session.
    Mr. Turner. In the analysis supporting the decision on a new four-
phased approach, were any cost estimates on the new approach conducted? 
If so, what are the estimated costs of the new four-phased approach?
    Secretary Tauscher. The Department of Defense is working through 
the total estimated costs for the four-phased approach, which will be 
reflected in the President's Budget Request for FY 2011.
    Mr. Turner. Given the increased reliance on Aegis ships in the 
European theater, what additional requirements are expected to be 
placed on the U.S. Navy and what impact would this increased reliance 
have on the Navy's ability to meet its worldwide missions and needs?
    Secretary Tauscher. The Phased Adaptive Approach (PAA) does not 
take sea-based Ballistic Missile Defense (BMD) capabilities deployed in 
the Pacific and re-deploy them to Europe. Under the President's plan, 
we will substantially increase the deployment of proven missile defense 
capabilities to counter the most likely missile threats. The 
President's FY 2010 budget requests increased funding for key missile 
defense assets to include making six additional Aegis ships BMD-
capable.
    Mr. Turner. NATO's missile defense architecture efforts to-date 
assumed that the previous approach would be ``linked'' with other NATO 
missile defense efforts. What is the schedule and plan for revising 
NATO's missile defense architecture to incorporate this new approach 
and, with the U.S. now providing ``more comprehensive'' coverage of 
Europe, what role and contribution will our European allies have? Does 
the Administration intend to seek NATO support for its new approach 
similar to that expressed in the April 2008 Bucharest Summit 
declaration?
    Secretary Tauscher. At the April 4, 2009 NATO Summit in Strasbourg/
Kehl, Heads of State and Government tasked NATO to develop 
recommendations comprising architectural alternatives for a possible 
NATO missile defense system. They also requested an evaluation of the 
policy, military, and technical work related to a possible expanded 
role of the Active Layered Theatre Ballistic Missile Defense (ALTBMD) 
program beyond the protection of deployed forces to include territorial 
missile defense. This work remains on schedule; responses to these 
taskings will be considered at the Lisbon Summit in 2010.
    We have offered the Phased Adaptive Approach as a U.S. contribution 
to a potential NATO missile defense effort. At the upcoming NATO 
Foreign Ministerial on December 3-4, we will seek NATO endorsement of 
the PAA. We have asked NATO members to consider contributing their own 
missile defense capabilities to a potential missile defense system for 
the protection of NATO territory and populations.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
